1a
APPENDIX A
NOT RECOMMENDED FOR FULL-TEXT
PUBLICATION
No. 17-6449
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SHAWNTELE
CORTEZ
JACKSON,
PetitionerAppellant,
v.
KATHY
LITTERAL,

)
)
)
)
)
)
)
)
)
)

ON APPEAL FROM
THE UNITED STATES
DISTRICT COURT FOR
THE WESTERN
DISTRICT OF
KENTUCKY

RespondentAppellee.
ORDER
Before: BATCHELDER,
LARSEN, Circuit Judges.

STRANCH,

and

Shawntele Cortez Jackson, a Kentucky state
prisoner, appeals through counsel a district court
judgment denying his petition for a writ of habeas
corpus, filed under 28 U.S.C. § 2254. The parties have

2a
waived oral argument, and this panel unanimously
agrees that oral argument is not needed. See Fed. R.
App. P. 34(a).
In 2007, a jury convicted Jackson of murder and
tampering with evidence, and he was sentenced to
fifty years of imprisonment. The murder in this case
occurred after midnight on May 16, 2006. Jackson and
a friend paid the victim and his girlfriend to drive
them to a convenience store to meet someone who
owed Jackson money. All the occupants of the victim’s
car had been taking drugs. On the way back, Jackson
and the victim got into an argument. Jackson testified
that after they parked, the victim got a gun out of the
trunk and threatened him with it. They were
struggling over the gun when it went off, hitting the
victim in the back of the head. The victim’s girlfriend
testified that Jackson was pistol whipping the
unarmed victim when the gun was fired. Jackson’s
friend testified that Jackson was hitting the victim
when he heard a gunshot, although he had not seen a
gun. The murder weapon was not recovered. Jackson
v. Commonwealth, No. 2007-SC-392-MR, 2010 WL
252244, at *1-2 (Ky. Jan. 21, 2010).
Jackson unsuccessfully pursued a direct appeal
and post-conviction relief in the state courts. In this
petition for federal habeas corpus relief, he raised ten
claims that he had exhausted in his state direct appeal
and six claims of ineffective assistance of counsel. A
magistrate judge recommended that the petition be
denied, and the district court adopted this
recommendation over Jackson’s objections.
This court granted Jackson a partial certificate
of appealability, and he has now briefed claims of a

3a
jury instruction error, the limitation of crossexamination of a witness, and the admission of
evidence that he had on an earlier occasion possessed
a gun other than the one used in the murder. In
addition, he has briefed four claims of ineffective
assistance of trial counsel: the failure to present
mitigation evidence, counsel’s advice to Jackson to
testify to claim self-defense, the failure to move for a
special verdict form to indicate whether he was
convicted of intentional or wanton murder, and the
failure to object to the jury taking a video of the crime
scene into the jury room.
Where a state court has rejected a claim in a
habeas corpus petition on the merits, the petitioner is
entitled to relief only if the state court’s rejection of
his claim is contrary to, or an unreasonable
application of, clearly established federal law. See 28
U.S.C. § 2254(d)(1). The Kentucky Supreme Court
found that the errors alleged in Jackson’s first three
claims were harmless. Jackson, 2010 WL 252244, at
*6, *8, *10.
In his first claim, Jackson argued that he was
erroneously denied an instruction on self-protection
for the lesser-included charges of reckless homicide
and second-degree manslaughter. The Kentucky
Supreme Court found that this was harmless error
because Jackson was convicted of murder and did
receive an instruction on self-protection for that
charge. Moreover, the state court noted that the
instructions, as given, reduced the State’s burden of
proof on the lesser included offenses, but the jury
nevertheless did not convict him of those charges,
which the jury was also instructed not to reach unless
it found Jackson not guilty of murder. Because the

4a
jury was properly instructed on the offense of
conviction, the state court reasonably concluded that
the trial court’s error did not have a substantial and
injurious effect on the verdict. See Brecht v.
Abrahamson, 507 U.S. 619, 637 (1993).
Next, Jackson argues that his impeachment of
a witness was improperly limited. His girlfriend
testified that Jackson came to her apartment after she
heard the gunshot, looking scared. She claimed not to
remember an earlier statement that she made
omitting the gunshot and Jackson’s appearance, and
counsel was not permitted to introduce that
statement. To determine if an alleged denial of
confrontation was prejudicial, courts examine factors
such as the importance of the testimony, the extent to
which the witness was otherwise cross-examined, and
the strength of the prosecution’s case. See Delaware v.
Van Arsdall, 475 U.S. 673, 684 (1986). The record
supports the state court’s finding that this testimony
was of little importance, the witness was otherwise
extensively cross-examined, a similar statement from
her was introduced through another witness, and the
prosecution’s case was strong, including two
eyewitnesses to the shooting. Jackson, 2010 WL
252244, at *8. Nor was the prior statement evidence
of bias or prejudice by the witness. In these
circumstances, the state court reasonably concluded
that the alleged error was harmless. See Brecht, 507
U.S. at 637.
In his third claim, Jackson argued that the trial
court erred in admitting testimony that he had been
carrying a handgun different from the one described
by the victim’s girlfriend several days before the
murder. The admission of other bad acts evidence is

5a
properly found harmless where the evidence of guilt is
overwhelming. See United States v. Hardy, 643 F.3d
143, 153 (6th Cir. 2011). The Kentucky Supreme
Court explained that the error was harmless because:
Independent evidence strongly suggested
[Jackson]’s guilt. While in custody prior to trial,
[Jackson] telephoned [a woman] and a recording of
that call was played for the jury. Therein, [Jackson]
warned [the woman] not to tell investigators that he
was known for having a gun and told her to claim that
she was forced or threatened to testify if she could not
ignore the subpoena. This evidence taken with the fact
that neither [Jackson] nor [the victim] had defensive
wounds, that [Jackson] fled the scene of the crime,
that no murder weapon was recovered, that [Jackson]
attempted to dispose of the clothes he was wearing,
and that [the victim’s girlfriend] saw [Jackson]
threaten and intentionally strike [the] unarmed
[victim] with a loaded handgun all demonstrates that
[the challenged evidence] had little effect on
[Jackson]’s conviction.
2010 WL 252244, at *6. The Kentucky Supreme
Court’s conclusion that the admission of this
testimony was harmless was not contrary to or an
unreasonable application of clearly established
federal law.
The remaining four claims allege ineffective
assistance of trial counsel. In order to establish
ineffective assistance, Jackson must show that his
counsel’s performance was deficient and the result of
the trial was prejudiced. Strickland v. Washington,
466 U.S. 668, 687 (1984). Jackson raised these claims
in his post-conviction proceedings, and the trial court

6a
held an evidentiary hearing, but ultimately denied the
motion. Jackson v. Commonwealth, No. 2013-CA001727-MR, 2015 WL 1648058, at *4 (Ky. Ct. App.
April 10, 2015). Jackson appealed to the Kentucky
Court of Appeals, which affirmed the dismissal. Id. at
*7. Jackson then appealed to the Kentucky Supreme
Court, which denied discretionary review.
Jackson’s first claim is that counsel failed to
present mitigation evidence. Counsel testified that
she had Jackson’s parents’ phone number but was
unable to reach them and understood that Jackson
was estranged from them. She also testified that she
believed that the testimony of Jackson and another
witness during trial presented some mitigation.
Although Jackson claims that his sisters were
available to testify, he does not now explain what
testimony they would have presented. The state
courts’ conclusion that this claim lacked merit is not
contrary to or an unreasonable application of clearly
established federal law. Jackson’s conclusory
argument on this issue is insufficient to show deficient
performance by counsel or prejudice to his case. See
id.
Next, Jackson argues that counsel misadvised
him to testify to present his self-defense theory. But
Jackson fails to point to any elicited testimony that
would have contributed to his guilty verdict. Finally,
Jackson alleges that counsel “coerced” him into
testifying. But at the evidentiary hearing, counsel
stated that she left the decision of whether to testify
up to Jackson, and Jackson provides no evidence to
the contrary. His cursory argument on this issue does
not set forth any prejudice from his decision to testify,
and the state courts’ decision that Jackson failed to

7a
establish this claim of ineffective assistance of counsel
has not been shown to be contrary to or an
unreasonable application of clearly established
federal law.
In his third claim of ineffective assistance,
Jackson argues that counsel should have moved for a
special verdict form that would indicate whether he
was convicted of intentional or wanton murder.
Kentucky law provides that murder can be committed
intentionally or wantonly. See K.R.S. § 507.020.
Though Jackson asserts that trial counsel’s failure to
request a special verdict form “deprived Jackson of the
opportunity for the jury to distinguish between
intentional murder and wanton murder” he fails to
specify how this would have affected his case. Again,
Jackson’s truncated argument as to this claim fails to
establish that the lack of a special verdict form
prejudiced the result of his trial, and he therefore fails
to show that the state courts’ rejection of this claim
was unreasonable.
Finally, Jackson argues that counsel should
have objected when a video of the crime scene, which
had been shown in court without the audio police
description, was admitted into evidence and taken
into the jury room, where the jury might have watched
it with the audio. In the postconviction proceeding, the
state court found that this claim was too speculative
to establish ineffective assistance because it was not
apparent that the jury had watched or listened to the
video in the jury room. In addition, the state court
noted that the jury already had the benefit of the
police officer’s live narration. The state court
reasonably concluded that Jackson had not
established a reasonable probability that counsel’s

8a
failure to object had prejudiced the result of the
proceeding.
In sum, the state courts’ rejection of each of
these claims of ineffective assistance has not been
shown to be contrary to or an unreasonable
application of clearly established federal law. See 28
U.S.C. § 2254(d)(1). For the above reasons, we
AFFIRM the district court’s judgment denying this
petition for federal habeas corpus relief.
ENTERED BY ORDER OF THE COURT
August 16, 2019

9a
APPENDIX B
No. 17-6449
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
SHAWNTELE
CORTEZ
JACKSON,
PetitionerAppellant,
v.
KATHY
LITTERAL,

)
)
)
)
)
)
)
)
)
)

ORDER

RespondentAppellee.
Shawntele Cortez Jackson, a Kentucky state
prisoner, moves for in forma pauperis status and a
certificate of appealability from the district court
judgment denying his petition for a writ of habeas
corpus, filed under 28 U.S.C. § 2254.
In 2007, a jury convicted Jackson of murder and
tampering with evidence, and he was sentenced to
fifty years of imprisonment. Jackson argued that the
killing was in self-defense, and he testified at trial. He
unsuccessfully pursued a direct appeal and postconviction relief in the state courts. In this petition for

10a
federal habeas corpus relief, he raised ten claims that
he had exhausted in his state direct appeal, and six
claims of ineffective assistance of counsel that he had
raised in his post-conviction action. A magistrate
judge recommended that the petition be denied, and
the district court adopted this recommendation over
Jackson’s objections. Jackson v. Litteral, No. 3:16-cv91, 2017 WL 5148358 (W.D. Ky. Nov. 6, 2017).
In order to be entitled to a certificate of
appealability, Jackson must show that reasonable
jurists could find the district court’s assessment of his
claims debatable or wrong. See Slack v. McDaniel, 529
U.S. 473, 484 (2000).
In his habeas petition, Jackson claims error by
the trial court on a number of issues, including jury
instructions, evidentiary rulings, a Confrontation
Clause issue, failure to strike a juror for cause, and six
claims of ineffective assistance of counsel. We grant a
certificate of appealability on the following issues: (1)
whether Jackson was erroneously denied an
instruction on self-protection for the lesser-included
charges of reckless homicide and second-degree
manslaughter. The Kentucky Supreme Court found
that this was harmless error because Jackson was
convicted of murder and did receive an instruction on
self-protection for that charge. See Jackson v.
Commonwealth, No. 2007-SC-392-MR, 2010 WL
252244, at *10 (Ky. 2010); (2) whether Jackson’s crossexamination of prosecution witness Amber Baker was
improperly limited in violation of the Confrontation
Clause. Jackson alleges that Baker made prior
statements to an investigator that conflicted with her
testimony at trial. The Kentucky Supreme Court

11a
found that the trial court erred in its limitation of the
cross-examination of Baker, but found the error to be
harmless. Jackson, 2010 WL 252244, at *8; and (3)
Jackson contends that testimony that he had been
carrying a different handgun several days before the
murder was erroneously admitted. On direct appeal,
the Kentucky Supreme Court found that this was
harmless error. Id. at *6. Other bad acts evidence is
only found harmless where the evidence of guilt is
overwhelming. See United States v. Hardy, 643 F.3d
143, 153 (6th Cir. 2011). Because Jackson has raised
a colorable claim of self-defense, we do not find the
error harmless. We also grant the motion to expand
the certificate of appealability as to all of Jackson’s
claims of ineffective assistance of counsel.
In general, we find that the trial court hindered
Jackson’s presentation of his claim of self-defense
through questionable evidentiary rulings and the jury
instructions. While the Kentucky Supreme Court
found any error harmless, we are not convinced.
Considering the conflicting versions of events
presented by the witnesses, the cumulative effect of
these errors may have prejudiced Jackson’s right to a
fair trial. The motion for a certificate of appealability
is granted as to the issues listed above, and the motion
for in forma pauperis status is granted.
ENTERED BY ORDER OF THE COURT
November 27, 2018

12a
APPENDIX C
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
SHAWNTELE
CORTEZ JACKSON,

Petitioner,

v.

Civil Action No.
3:16-v-91-DJH-DW

WARDEN KATHY
LITTERAL,

Respondent.
*****

MEMORANDUM OPINION AND ORDER
Shawntele Cortez Jackson has filed a pro se
petition for writ of habeas corpus under 28 U.S.C. §
2254, alleging various constitutional violations.
(Docket No. 1) Respondent Kathy Litteral opposes
Jackson’s petition. (D.N. 15) The Court referred this
matter to Magistrate Judge Dave Whalin, who issued
a report and recommendation on May 24, 2017. (D.N.
29) Judge Whalin recommended that the Court deny
Jackson’s petition. (Id., PageID # 824) He also
concluded that Jackson was not entitled to a
Certificate of Appealability pursuant to 28 U.S.C. §
2253(c)(1)(B). (Id., PageID # 823–24) After the Court
granted Jackson additional time (D.N. 33), he filed
objections to Judge Whalin’s report on July 14, 2017.

13a
(D.N. 34) For the reasons set forth below, Jackson’s
objections will be overruled. After careful
consideration, the Court will adopt in full Judge
Whalin’s Findings of Fact, Conclusions of Law, and
Recommendation.
I.
In 2007, Jackson was convicted by a jury in
Jefferson County, Kentucky, of the murder of Richard
Lee Washington. (See D.N. 15-16) The conviction
follows from events that occurred in Louisville,
Kentucky, on May 16, 2006. That evening, Jackson,
D’Angelo Scott, Dora Ditto, and Ditto’s boyfriend,
Richard Lee Washington, drove together to a
convenience store to collect money from an individual
indebted to Jackson. See Jackson v. Commonwealth
(Jackson I), No. 2007-SC-000392-MR, 2010 WL
252244, at *1 (Ky. Jan. 21, 2010). While at the
convenience store, Jackson and Washington began
arguing and continued to do so as the group reached
the apartment of Jackson’s girlfriend, Dominique
Rudolph. Id.
According to Jackson, upon exiting the vehicle,
Ditto removed a black handgun from the trunk and
handed it to Washington. Id. Washington then
approached Jackson and threatened to kill him. Id.
Shoving ensued, and eventually the two men
struggled for possession of the handgun. Id. Jackson
claims that during the entanglement, the gun fired
while in Washington’s right hand and struck
Washington in the back of the head. Id.

14a
Ditto’s version of events differs markedly. Ditto
explained that upon exiting the vehicle, Jackson
asked Washington for another ride, which
Washington refused. Id. at *2. Jackson then hit
Washington in the head with a handgun and told him
he “ought to kill him.” Id. Ditto asserted that Jackson
proceeded to strike Washington again with the gun,
causing it to fire and kill Washington. Id. Scott
testified similarly, with one notable exception. He
testified that although he heard the gun fire, he did
not recall seeing either man with a firearm earlier
that night. Id.
There are likewise differing versions as to the
subsequent events. According to Jackson, he ran to his
girlfriend Rudolph’s apartment immediately after the
altercation. Id. Jackson asserts that he fell asleep
there and did not wake or leave the apartment for
thirty-six hours. Id. Ditto, on the other hand, stated
that Jackson immediately ran from the scene with the
gun still in his possession. Id. Scott testified that he
too went to Rudolph’s apartment following the
altercation but that Jackson arrived there sometime
later in the night. Id. At trial, the state also presented
the testimony of Amber Baker, Jackson’s exgirlfriend. See Jackson I, 2010 WL 252244, at *2.
Baker testified that Jackson arrived at her apartment
on the night in question looking scared and watching
out her screen door. Baker stated that Jackson
continued doing so for twenty minutes before leaving.
Id.
Following Jackson’s arrest and indictment by a
grand jury, a jury found Jackson guilty of murdering
Washington under Ky. Rev. Stat. § 507.020. (See D.N.

15a
15-16) Jackson timely appealed his conviction, raising
ten allegations of error on appeal. (See D.N. 15-4) In
an opinion issued January 21, 2010, the Supreme
Court of Kentucky affirmed Jackson’s conviction.
Jackson I, 2010 WL 252244, at *13.
Jackson then filed a pro se collateral attack
pursuant to Kentucky Rule of Criminal Procedure
11.42 in the Jefferson Circuit Court, asserting seven
claims of ineffective assistance of counsel and a claim
of cumulative error. (D.N. 15-8; D.N. 15-9) When
Jackson’s appointed counsel declined to supplement
Jackson’s motion, Jackson filed a supplemental pro se
motion pursuant to Rule 11.42. There, Jackson raised
three additional grounds of ineffective assistance of
counsel. (See 15-1, PageID # 137) The Jefferson
Circuit Court held an evidentiary hearing and
ultimately dismissed Jackson’s claims. (D.N. 15-8,
PageID # 387–97) Jackson appealed five of his claims
to the Kentucky Court of Appeals, which affirmed the
state trial court’s decision. See Jackson v.
Commonwealth (Jackson II), No. 2013-CA-001727MR, 2015 WL 1648058 (Ky. Ct. App. Apr. 10, 2015).
Thereafter, the Kentucky Supreme Court denied
Jackson’s request for discretionary review. (See D.N.
15-10, PageID # 461)
Jackson has now filed a petition for habeas
corpus relief in this Court, raising the ten claims from
his direct appeal, the five claims of ineffective
assistance of counsel from his Rule 11.42 motion, and
a claim of cumulative error. (See D.N. 1) On May 24,
2017, Magistrate Judge Dave Whalin issued his
report and recommendation. (D.N. 29). Jackson timely
filed objections to Judge Whalin’s findings. (D.N. 34)

16a
Judge Whalin based his conclusion on sixteen
separate findings (Grounds 1–16). Jackson objects to
all but grounds five, fifteen, and sixteen. (Id.)
Accordingly, the Court’s review will be limited to
grounds one through four and six through fourteen.
Thomas v. Arn, 474 U.S. 140, 150 (1985) (finding that
if a party fails to object, the Court need not “review a
magistrate’s factual or legal conclusions, under a de
novo or any other standard.”)
II.
The Antiterrorism and Effective Death Penalty
Act of 1996 (AEDPA) provides relief to a habeas
petitioner if the underlying state-court decision “was
contrary to, or involved an unreasonable application
of, clearly established Federal Law, as determined by
the Supreme Court.” 28 U.S.C. § 2254(d). This clause
applies “if the state court arrives at a conclusion
opposite to that reached by th[e Supreme] Court on a
question of law or if the state court decides a case
differently than th[e Supreme] Court has on a set of
materially indistinguishable facts.” Williams v.
Taylor, 529 U.S. 362, 413 (2000). If fair-minded jurists
could disagree as to the correctness of the state court’s
decision, then Jackson will not be entitled to relief.
Harrington v. Richter, 562 U.S. 86, 102 (2011).
The AEDPA also provides relief if the statecourt decision “was based on an unreasonable
determination of the facts in light of the evidence
presented in the State court proceeding.” 28 U.S.C. §
2254(d). This occurs when “the state court identifies
the correct governing legal principle from th[e
Supreme] Court’s decisions but unreasonably applies

17a
that principle to the facts of the prisoner’s case.”
Williams, 529 U.S. at 413. Under this clause, Jackson
must show that “the state court applied [a Supreme
Court case] to the facts of his case in an objectively
unreasonable manner.” Woodford v. Visciotti, 537 U.S.
19, 25 (2002).
When reviewing a report and recommendation,
this Court reviews de novo “those portions of the
report
or
specified
proposed
findings
or
recommendations to which objection is made.” 28
U.S.C. § 636(b)(1)(C). The Court may adopt without
review any portion of the report to which an objection
is not made. See Thomas, 474 U.S. at 150. On review,
the Court “may accept, reject, or modify the
recommended disposition; receive further evidence; or
return the matter to the magistrate judge with
instructions.” Fed. R. Civ. P. 72(b)(3). Accordingly, the
Court will review de novo the portions of Judge
Whalin’s recommendation to which Jackson objects to
determine if relief is warranted under the AEDPA.
III.
a. Jackson’s Claims from Direct Appeal
1. Failure to Instruct on Self-Protection
(Ground One)
Three of Jackson’s claims concern trial errors
and the issue of whether the Kentucky Supreme Court
was correct to conclude that such errors were
“harmless.” A habeas petitioner is not entitled to relief
based on trial error unless he can establish that it
resulted in “actual prejudice.” See Brecht v.

18a
Abrahamson, 507 U.S. 619 (1993). The Court agrees
with the Kentucky Supreme Court and Judge Whalin
that Jackson has not met this standard.
At issue in ground one of Jackson’s petition is
the trial court’s failure to instruct the jury on a selfprotection defense for the lesser-included offenses of
second-degree manslaughter and reckless homicide.
(D.N. 1-1, PageID # 49) The Kentucky Supreme Court
found that the trial court abused its discretion in
failing to so instruct. Jackson I, 2010 WL 252244, at
*9. The court held, however, that the error was
harmless, given the fact that the jury chose to convict
Jackson under the correctly phrased instruction of
murder—a charge that placed an additional burden
on the state to disprove Jackson’s claim of selfprotection. Id. at *10.
In his report and recommendation, Judge
Whalin agreed, concluding that Jackson could not
prove that the failure to instruct the jury on selfprotection prejudiced him. (D.N. 29, PageID # 797)
Jackson objects to this conclusion, arguing that the
failure effectively denied him from utilizing the selfprotection defense against the lesser-included
charges. (D.N. 34, PageID # 837–38) Even if this is
true, however, this goes to show only that the trial
court erred. In his objection, Jackson again fails to
show that the error was prejudicial, given that he was
ultimately convicted under a correctly worded charge.
Accordingly, Jackson has failed to meet his burden
under Brecht, and the Court will adopt Judge
Whalin’s conclusion as to ground one.

19a
2. Limited Impeachment of Prosecution
Witness (Ground Three)
At issue in ground three of Jackson’s petition is
the trial court’s limiting of his counsel’s impeachment
of Amber Baker, Jackson’s ex-girlfriend, who provided
testimony adverse to him. (D.N. 1-1, PageID # 54) At
trial, the court limited defense counsel’s questions
regarding a prior and allegedly inconsistent
statement Baker had given to investigator Joy
Aldrich. The Kentucky Supreme Court found that
while the trial court erred in this limitation, the error
was harmless because Baker’s testimony was later
called into question anyway when defense counsel
questioned Detective Cohen concerning statements
that were substantially similar to the statements
Baker allegedly made to Aldrich. Jackson I, 2010 WL
252244, at *8.
In his report and recommendation, Judge
Whalin agreed with the Kentucky Supreme Court,
adding that Jackson’s counsel was otherwise granted
significant latitude during cross-examination besides
the limitation at issue. (D.N. 29, PageID # 799–800)
Judge Whalin concluded that under the applicable
standard, Baker had not shown that the trial court’s
error had a “substantial and injurious effect” on
Jackson’s case and thus it was “harmless” for
purposes of his habeas petition. (Id., PageID # 800
(citing Delaware v. Van Arsdall, 475 U.S. 673, 680–81
(1986)))
In his objection, Jackson again contends that
the limitation violated his rights under the
Confrontation Clause. (D.N. 34, PageID # 839–42) As

20a
in his objection to ground one, however, Jackson cites
various Supreme Court cases interspersed with
conclusory legal statements regarding his case. (Id.)
Jackson does not directly address how the trial court’s
error was “substantial and injurious,” besides stating
the obvious that Baker’s testimony was harmful to
Jackson’s overall defense. The fact that Baker
ultimately gave adverse testimony does not render the
trial court’s error “substantial and injurious,”
however—especially when the testimony differed only
slightly from the alleged inconsistent statement given
to the investigator. (See D.N. 29, PageID # 799 (citing
Van Arsdall, 475 U.S. at 680)) Accordingly, the
magistrate judge correctly concluded that Jackson
does not state a viable claim in ground three of his
petition.
3. Inadmissible Reference to Possession of
Handgun (Ground Seven)
At issue in ground seven is the trial court’s
admission of testimony regarding Jackson’s
possession of a small, silver handgun. Jackson claims
that he was prejudiced by this testimony because the
statements from Ditto and Scott indicated that a black
handgun was used in the shooting of Washington.
(D.N. 1-1, PageID # 63) The Kentucky Supreme Court
agreed with Jackson that the testimony had a
prejudicial effect that was not outweighed by its
probative value, but ultimately concluded that the
error was harmless since it did not have a “substantial
influence” on the trial given the independent evidence
that indicated Jackson’s guilt. Jackson I, 2010 WL
252244, at *6 (citing Winstead v. Commonwealth, 283

21a
S.W.3d 678, 688–89 (Ky. 2009)). Such evidence
included the fact that:
Jackson phoned Baker from prison and warned
her not to tell investigators that he was known for
having a gun, the fact that neither Washington nor
Jackson had defensive wounds, that Jackson fled from
the scene of the crime, that no murder weapon was
recovered, that Jackson attempted to dispose of his
clothes, and that Ditto saw Jackson threaten and
intentionally strike an unarmed Washington with a
loaded handgun.
(D.N. 29, PageID # 801) In his report and
recommendation, Judge Whalin first noted that
“[a]dmission of bad-acts evidence constitutes
harmless error if the other record evidence of guilt is
overwhelming, eliminating any fair assurance that
the conviction was substantially swayed by the error.”
(D.N. 29, PageID # 802 (citing United States v. Hardy,
643 F.3d 143, 153 (6th Cir. 2011) (internal quotations
omitted))) Accordingly, Judge Whalin agreed with the
Kentucky Supreme Court that the trial court’s
admission of the testimony at issue was harmless,
given the testimony’s brevity and the additional,
overwhelming evidence that indicated Jackson’s guilt.
(Id., PageID # 803)
In his objection, Jackson does not directly
counter the magistrate judge’s conclusion. Indeed,
Jackson begins by recognizing that he undertakes a
“daunting task” in seeking habeas relief under this
ground. He then proceeds to blame his failure to
satisfy his burden on the “facist AEDPA” and
“[u]n[A]merican legal principles.” (D.N. 34, PageID #

22a
843) Jackson has not demonstrated how the trial
court’s error was harmful. The Court thus finds that
the magistrate judge was correct in his conclusion
that ground seven fails to state a viable claim.
4. Admissibility of Testimony Regarding the
Position of Victim’s Body (Ground Two)
At issue in ground two is the trial court’s
admission of testimony from two police officers called
to the scene of the crime. At trial, the officers testified
as to the position of Washington’s body, concluding
that the position was inconsistent with a fight or a
struggle. (See D.N. 29, PageID # 803) The Kentucky
Supreme Court held that the trial court properly
admitted the officers’ testimony as lay opinions under
Kentucky Rule of Evidence 701. Jackson I, 2010 WL
252244, at *5.
In his petition, Jackson argues that because the
jury had access to high-quality photographs of
Washington’s body at the crime scene, the officers’
testimony was cumulative and the trial court erred in
admitting it. (D.N. 1-1, PageID # 50–54 (citing Allen
v. United States, 479 U.S. 1077 (1987))) Jackson also
argues that the Kentucky Supreme Court based its
decision on an unreasonable determination of the
facts in light of the evidence presented. (Id.)
In his report and recommendation, Judge
Whalin noted that Jackson’s reliance on Allen was
misplaced, given the fact that in Allen the Supreme
Court vacated the lower court’s judgment on grounds
not involving lay-witness testimony. (D.N. 29, PageID
# 805) Accordingly, Jackson pointed to no “clearly

23a
established federal law” to support his argument. (Id.
(citing Jones v. Jamrog, 414 F.3d 585, 591 (6th Cir.
2005))) As to Jackson’s second argument, Judge
Whalin concluded that the Kentucky Supreme Court
could not have unreasonably determined facts as to
this issue because the issue involved a
straightforward application of law (i.e., Ky. R. Ev. 701)
not of fact. (Id.)
In objection, Jackson merely parrots his
previous arguments. (D.N. 34, PageID # 844–46) The
Court need not consider an objection that simply
restates the arguments set forth in a habeas petition.
VanDiver v. Martin, 304 F. Supp. 2d 934, 937 (E.D.
Mich. 2004) (observing that “[a]n objection that does
nothing more than state a disagreement with a
[magistrate judge’s] suggested resolution, or simply
summarizes what has been presented before, is not an
objection” within the meaning of 28 U.S.C. §
636(b)(1)). The only new argument Jackson presents
is a citation to Remmer v. United States, 347 U.S. 227
(1954). (D.N. 34, PageID # 845) In Remmer, however,
the petitioner complained that an unnamed person
had remarked to a juror during the petitioner’s trial
that the juror could profit by bringing in a verdict
favorable to petitioner. 347 U.S. at 228. The issue of
how a bribe purportedly from a defendant in a jury
trial would affect a juror’s determination of the case is
far from the issue presented here. There is simply no
evidence that the allegedly cumulative testimony
improperly swayed the jury’s thoughts. Accordingly,
the Court will adopt the magistrate judge’s conclusion
as to ground two.

24a
5. Initial Aggressor—Provocation Instruction
(Ground Four)
At issue in ground four is the trial court’s
inclusion of a provocation qualification in the jury
instruction on self-defense. The Kentucky Supreme
Court concluded that the instruction was proper
because the evidence indicated that Jackson may have
intentionally provoked Washington on the night of the
murder. (See D.N. 29, PageID # 806) In his petition,
Jackson argues that this result is contrary to Estelle
v. McGuire, 502 U.S. 62, 67–68 (1991). (D.N. 1-1,
PageID # 58–60) Jackson also contends that the
provocation
instruction
stemmed
from
an
unreasonable determination of the facts. (Id.)
First, as the magistrate judge noted, “Estelle
has no holding that undermines the Kentucky
Supreme Court’s decision.” (D.N. 29, PageID # 806)
Indeed, Estelle states that “it is not the province of a
federal habeas court to reexamine state-court
determinations on state-law questions.” 502 U.S. at
63. Second, as to Jackson’s factual challenge, the
magistrate judge concluded that the propriety of the
provocation instruction was not an unreasonable
determination. Specifically, the magistrate judge
noted that “[t]he testimony at trial created an issue of
fact as to whether Jackson intentionally provoked
Washington.” (D.N. 29, PageID # 807)
In his objection, Jackson cites several Supreme
Court cases to argue that the state court’s decision is
contrary to established federal law. (D.N. 34, PageID
# 847 (citing Fiore v. White, 531 U.S. 225 (2001);
Patterson v. New York, 432 U.S. 197 (1977); In Re

25a
Winship, 397 U.S. 358 (1970))) Each case, however, is
wholly inapplicable to Jackson’s claim. First, Fiore
fails to even mention the term “jury,” “provocation,” or
“instruction.” See 531 U.S. 225. In Patterson, the
Supreme Court held that due process is not violated
by placing on a defendant the burden of proving by a
preponderance of the evidence any proffered
affirmative defenses. 432 U.S. at 206–07. If anything,
then, Patterson actually hurts Jackson’s argument.
Winship is also inapplicable here. There, the Supreme
Court held that the reasonable-doubt standard
applies to juvenile defendants. 432 U.S. at 368.
Jackson was not a juvenile at the time of his
conviction, so it is unclear how Winship applies to this
case. In sum, Jackson has failed to indicate clearly
established federal law supporting his claim. The
Court will accordingly adopt Judge Whalin’s
conclusions as to ground four.
7. Exclusion of Photographic Evidence
(Ground Six)
At issue in ground six is the trial court’s
exclusion of photographic evidence demonstrating
bruising to Jackson’s wrist. During trial, Jackson
sought to introduce a “mug shot,” which allegedly
showed redness along his wrists and supported his
claim that Washington held him by the wrists during
their struggle. (See D.N. 29, PageID # 809) The trial
court concluded that the mug shot was inadmissible
due to its poor quality. (Id.) The Kentucky Supreme
Court affirmed, explaining that the poor quality
created a serious danger of misleading the jury.
Jackson I, 2010 WL 252244, at *9.

26a
As
explained
in
the
report
and
recommendation, Jackson’s only basis for challenging
the court’s ruling on this issue is a wholly inapplicable
Supreme Court case. (See D.N. 1-1, PageID # 62–63
(citing California v. Trombetta, 467 U.S. 479 (1984)))
In his objection, Jackson presents no new arguments.
(See D.N. 34, PageID # 848–49) Accordingly, the Court
will adopt the magistrate judge’s conclusion as to
ground six. See VanDiver, 304 F. Supp. 2d at 937.
8. Inadmissible Evidence in Jury Deliberations
(Grounds Eight and Fourteen)
At issue in grounds eight and fourteen is
Jackson’s claim that he was denied due process
because the jury allegedly considered during
deliberations audio recordings from a crime-scene
video that the trial court had excluded from evidence.
(See D.N. 15-4, PageID # 236–37) As Judge Whalin
explained, however, Jackson procedurally defaulted
on this claim. (See D.N. 29, PageID # 810) Thus,
Jackson must show cause for the default and resulting
prejudice for the Court to consider the claim for
habeas relief. (Id., PageID # 811 (citing Williams v.
Anderson, 460 F.3d 789, 806 (6th Cir. 2006)))
To excuse the default, Jackson argues that the
error was properly preserved due to ineffective
assistance of counsel. (D.N. 1-1, PageID # 67–68) To
establish ineffective assistance of counsel, Jackson
must show deficient performance and resulting
prejudice. Strickland v. Washington, 466 U.S. 668,
687 (1984). The performance inquiry requires the
defendant to “show that counsel’s representation fell
below an objective standard of reasonableness,” and

27a
the court “must judge the reasonableness of counsel’s
challenged conduct on the facts of the particular case,
viewed as of the time of counsel’s conduct.” Id. at 688,
690. The prejudice inquiry compels Jackson “to show
that there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the
proceeding would have been different.” Id. at 694.
Judge Whalin concluded that Jackson had not
shown prejudice, given that Jackson put forth no
evidence that an “extraneous influence on a juror
denied him a fair trial.” (D.N. 29, PageID # 813) The
magistrate judge also noted that Jackson had
produced no evidence that the jury even viewed the
video at issue. (Id.)
In his objection, Jackson largely presents his
previous arguments, including caselaw that the
magistrate judge correctly distinguished from the case
at hand. (D.N. 34, PageID # 850 (citing Remmer v.
United States, 347 U.S. 227 (1954))) Jackson also
maintains that the state court misapplied Strickland
in reaching its conclusion. (Id.) But Jackson has
misinterpreted his burden. He failed to show that the
recordings, even if listened to by the jury, altered the
outcome of his trial. See Strickland, 466 U.S. at 694.
Accordingly, the Court will adopt the magistrate
judge’s findings as to grounds eight and fourteen.
9. Failure to Strike Juror for Cause (Ground
Nine)
At issue in ground nine is the trial court’s
denial of Jackson’s motion to strike a prospective juror
for cause. During voir dire, the juror at issue made

28a
three statements that, according to Jackson,
demonstrated the juror’s inability to presume
Jackson’s innocence. Specifically, the juror alluded
slightly to the belief that a defendant’s possession of a
gun or illegal drugs makes it more likely that a
defendant committed other crimes. See Jackson I,
2010 WL 252244, at *3. The Supreme Court of
Kentucky concluded that the trial court acted
appropriately in not striking the juror, reasoning that
the challenged responses were largely the result of
leading hypothetical questions posed by defense
counsel and that none of the statements actually
revealed an inability to be impartial. Id.
Judge Whalin agreed with this analysis, noting
that “[n]othing in Juror #24’s testimony indicated that
he would reject Jackson’s presumption of innocence.”
(See D.N. 29, PageID # 816) The juror never explicitly
stated that possession of a gun or illegal drugs makes
it more likely that an individual has committed other
crimes. Indeed, at most the record reflects a series of
head nods and inaudible statements in response to
defense counsel’s leading questions. See Jackson I,
2010 WL 252244, at *3 (“Juror #24 nodded his head in
agreement with defense counsel’s statement that
someone carrying a concealed handgun without a
permit would be more likely to commit a crime.”)
Jackson objects to the magistrate judge’s
findings, accusing him of “blindly accept[ing] the
determination of [the] trial court.” (D.N. 34, PageID #
852) But this criticism is misplaced. As Judge Whalin
explained, “[t]he resolution of the question of a juror’s
bias is a finding of fact which is entitled to a
‘presumption of correctness’ under 28 U.S.C. § 2254(d)

29a
and ‘may only be overturned where manifest error is
shown.’” (D.N. 29, PageID # 816 (quoting Holder v.
Palmer, 558 F.3d 328, 339 (6th Cir. 2009))) Judge
Whalin concluded that Jackson had not shown that
the trial court manifestly erred in not striking the
juror. (Id.) Jackson does nothing to refute this
conclusion, and therefore the Court will adopt Judge
Whalin’s conclusion as to ground nine.
10. Refusal to Instruct on “No Duty to Retreat”
(Ground Ten)
At issue in ground ten is Jackson’s claim that
the trial court’s refusal to instruct the jury on “no duty
to retreat” was reversible error. (D.N. 1-1, PageID #
77) The Kentucky Supreme Court held that the trial
court did not err in so refusing in light of the court’s
decision in Hilbert v. Commonwealth, 162 S.W.3d 921
(Ky. 2005), which was controlling at the time of
Jackson’s trial. See Jackson I, 2010 WL252244, at *12.
In Hilbert, the Kentucky Supreme Court held that
“when the trial court adequately instructs on selfdefense, it need not also give a no duty to retreat
instruction.” 162 S.W.3d at 926.
In his recommendation, the magistrate judge
similarly concluded that the caselaw was against
Jackson on this issue. (D.N. 29, PageID # 817)
Jackson’s objection to this conclusion consists of
reiterated previous arguments and conclusory legal
statements. Again, the Court need not consider an
objection that merely restates the arguments set forth
in a habeas petition.

30a
VanDiver, 304 F. Supp. 2d at 937. Accordingly,
the Court will adopt the magistrate judge’s conclusion
as to ground ten.
b.
Jackson’s
Rule
11.42
Ineffective Assistance of Counsel

Claims—

1. Failure to Move for a Special Verdict Form
(Ground Eleven)
At issue in ground eleven is Jackson’s
allegation that his trial counsel performed deficiently
by failing to move for a separate verdict form, which
would have required the jury to specify whether it was
finding Jackson guilty of intentional or wanton
murder. (D.N. 1-1, PageID # 79–83) Again, to
establish ineffective assistance of counsel, a defendant
must show deficient performance and resulting
prejudice. Knowles v. Mirzayance, 556 U.S. 111, 122
(2009); Strickland, 466 U.S. at 687.
Judge Whalin concluded that Jackson failed to
establish that the result of his trial would have been
different had trial counsel objected to this
combination jury instruction. (See D.N. 29, PageID #
818 (citing Strickland, 466 U.S. at 687)) In his
objection, Jackson again primarily reasserts previous
arguments, including his citation to Schad v. Arizona,
501 U.S. 624 (1991), which the magistrate judge
distinguished in his report and recommendation. (See
D.N. 34, PageID # 854–55) Jackson fails to show how
a separate verdict form would have changed the
outcome of his trial. Because Jackson has not satisfied
Strickland’s prejudice prong, the Court will adopt the
magistrate judge’s conclusions as to ground eleven.

31a
2. Failure to Advise Jackson of the Law of
Self-Defense (Ground Twelve)
At issue in ground twelve is Jackson’s
allegation that his trial counsel was ineffective by
coercing him into testifying and by misadvising him
as to the law of self-defense. (D.N. 1-1, PageID # 83–
86) Specifically, Jackson argues that his trial counsel
was deficient when she incorrectly advised him that
Kentucky’s codification of the “no duty to retreat”
doctrine (SB 38) would apply to his trial and thus
support a no duty to retreat jury instruction. Id. He
thus claims that this incorrect advice tricked him into
testifying at trial.
The Kentucky Court of Appeals concluded that
Jackson failed to establish that his trial counsel was
deficient in this regard. Jackson II, 2015 WL 1648058,
at *5. That court found that “[i]t was not unreasonable
for trial counsel, in light of SB 38, to seek a no duty to
retreat instruction.” Id. The court therefore held that
trial counsel’s performance was not deficient and as
such Strickland’s performance prong was not
satisfied. Id.
In his habeas petition, Jackson argues that but
for his trial counsel’s poor advice regarding the
applicability of SB 38, there is a reasonable
probability that he would not have testified. (D.N. 11, PageID # 83–86) In his report and recommendation,
Judge Whalin concluded, however, that Jackson could
not establish either prong of Strickland. Specifically,
Judge Whalin concluded that “tendering a ‘no duty to
retreat’ instruction was reasonable in light of the

32a
uncertain applicability of SB 38.” (D.N. 29, PageID #
819) Moreover, the magistrate judge concluded that
regardless
of
whether
Jackson’s
counsel’s
performance was deficient, Jackson had not
established Strickland’s prejudice prong. (Id., PageID
# 820)
In his objection, Jackson attacks the magistrate
judge’s conclusion as to prong one of Strickland. (D.N.
34, PageID # 855–57) Yet as stated, the magistrate
judge also concluded that regardless of deficient
performance by Jackson’s trial counsel, Jackson had
failed to establish that the deficiencies prejudiced his
defense. Jackson’s only retort to this finding is that
“[i]n light of the particular facts of this issue, prejudice
must be presumed.” (Id., PageID # 857) Jackson has
misstated his burden, however, and the Court need
not “presume” prejudice where the petitioner has not
adequately shown such prejudice. Strickland held
that prejudice is presumed in limited circumstances
only (i.e., denial of the assistance of counsel altogether
or when counsel is burdened by an actual conflict of
interest). Strickland, 466 U.S. at 692. Neither of these
situations is applicable here. The Court therefore
agrees with the magistrate judge that “Jackson fails
to identify how not taking the stand at trial and not
testifying to a theory of self-defense would have
changed the outcome of his case.” (D.N. 29, PageID #
820)
3. Failure to Present Mitigation Witnesses
(Ground Thirteen)
Finally, at issue in ground thirteen is Jackson’s
allegation that his trial counsel rendered ineffective

33a
assistance by failing to call any mitigation witnesses
during the sentencing phase of his trial. (D.N. 1-1,
PageID # 86–89) In his report and recommendation,
Judge Whalin concluded that “[a]fter reviewing the
record, the evidence demonstrates that trial counsel
attempted to contact mitigation witnesses for
Jackson’s case but was not able to get into contact
with them.” (D.N. 29, PageID # 821) Accordingly, the
magistrate judge concluded that Jackson had failed to
satisfy Strickland’s performance inquiry. (Id.) See also
Williams v. Lafler, 494 F. App’x 526, 531 (6th Cir.
2012) (finding that a lawyer’s diligent effort to locate
favorable witnesses was “reasonable” under
Strickland).
In objection, Jackson again reasserts his
previous arguments. As stated, the Court need not
consider an objection that merely restates the
arguments set forth in a habeas petition. See
VanDiver, 304 F. Supp. 2d at 937. Accordingly, the
Court will adopt Judge Whalin’s conclusion as to
ground thirteen.
IV.
After de novo review of the substance behind
Jackson’s objections to Judge Whalin’s Findings of
Fact, Conclusions of Law, and Recommendation, the
Court concludes that the Findings of Fact,
Conclusions of Law, and Recommendation are correct.
Accordingly, and the Court being otherwise
sufficiently advised, it is hereby
ORDERED as follows:

34a
(1) The Findings of Fact, Conclusions of Law,
and Recommendation of the magistrate judge (D.N.
29) are ADOPTED in full and INCORPORATED by
reference herein.
(2) Jackson’s objections to the Findings of Fact,
Conclusions of Law, and Recommendation (D.N. 34)
are OVERRULED.
date.

(3) A separate judgment will be issued this
November 6, 2017
United States District Court
David J. Hale, Judge

35a
APPENDIX D
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF KENTUCKY
LOUISVILLE DIVISION
CIVIL ACTION NO. 3:16CV-00091-DJH
SHAWNTELE CORTEZ JACKSON
PETITIONER/DEFENDANT
VS.
WARDEN KATHY LITTERAL
RESPONDENT/PLAINTIFF
FINDINGS OF FACT, CONCLUSIONS OF LAW
AND RECOMMENDATION
Shawntele Cortez Jackson (“Jackson”) is a
Kentucky prisoner that was convicted by a jury in
Jefferson County, Kentucky, for murder and
tampering with physical evidence. Jackson has filed a
pro se petition for writ of habeas corpus pursuant to 28
U.S.C. § 2254 for relief from his convictions. (DN 1).
Respondent Kathy Litteral (“Warden”) has responded
(DN 15), and Jackson has replied (DN 26). The District
Judge referred this matter to the undersigned United
States Magistrate Judge pursuant to 28 U.S.C.
§§636(b)(1)(A) and (B) for rulings on all nondispositive
motions; for appropriate hearings, if necessary; and for
findings of fact, conclusions of law, and
recommendations on any dispositive matter. (DN 8).
This matter is ripe for review.

36a
FINDINGS OF FACT
A. May 16, 2006 Events
Jackson’s convictions arise from the fatal
shooting of Richard Lee Washington in the Iroquois
housing projects in Louisville, Kentucky, on May 16,
2006. Jackson v. Commonwealth, No.
2007-SC-000392-MR, 2010 WL 252244, at *1 (Ky. Jan.
21, 2010).
The events of that night unfolded as follows.
Jackson, then twenty-years-old and living off-and-on
with his girlfriend, Dominique Rudolph, in an
apartment in the Iroquois projects, received a phone
call from an individual who owed him money. Id.
Jackson and his acquaintance, D’Angelo Scott,
approached Dora Ditto and her boyfriend, Richard Lee
Washington, and offered to pay them ten dollars for a
ride to the convenience store. Id. Ditto and
Washington agreed and drove the foursome to the
convenience store. Id. Jackson met his debtor and
collected the money. Id.
Before leaving the convenience store, Jackson
and Washington started verbally arguing and
continued to argue until the group reached the
Iroquois projects. Id. Jackson claims that Washington
started the argument because he wanted more “dope.”
Id. But both Ditto and Scott testified that the
argument involved a missing cell phone. Id.
From this point forward, Jackson’s account of
events differs markedly from Ditto’s and Scott’s. Id.
Jackson testified that Washington and Ditto exited the

37a
vehicle first and walked toward the trunk while he and
Scott remained in the back seat. Id. According to
Jackson, Ditto then removed a black handgun from the
trunk and handed it to Washington. Id. Jackson exited
the vehicle, stepped onto the sidewalk, and resumed
his argument with Washington. Id. Allegedly
Washington approached Jackson and threatened to kill
him. Id. Yelling and shoving ensued. At some point
shortly thereafter, Jackson saw Washington draw a
handgun. Id. Jackson grabbed Washington’s wrists,
and the two men struggled for possession of the
handgun. Id. During this struggle, the gun fired while
in Washington’s right hand and struck Washington in
the back of the head.
Ditto, on the other hand, testified that Jackson
was the first to exit the vehicle upon returning to
Iroquois and that he walked toward a group of
apartments before backtracking to inform the group
that he had found his cell phone. Id. Ditto explains
that Jackson then asked Washington for another ride,
which Washington refused. Id. According to Ditto,
Jackson then hit Washington in the head with a
handgun, ordered Ditto to get on the sidewalk, and
told Washington he “ought to kill him.” Id. Jackson
proceeded to strike Washington again with the gun,
causing it fire and kill Washington. Id. Similarly, Scott
testified that he remembered Jackson and Washington
fighting and that Jackson “backed up and charged at
Washington, swinging his right arm and hitting
Washington in the face.” Id. Scott stated that he heard
the gun fire but did not recall seeing either man with
a firearm earlier that night. Id.
After Washington was shot, Jackson states that

38a
he ran to Rudolph’s apartment because he was scared
and high. Id. Jackson asserts that he fell asleep and
did not wake or leave the apartment for thirty-six
hours. Id. According to Ditto, Jackson immediately ran
from the scene with a gun in his hand. Id. Scott
testified that he also went to Rudolph’s apartment
after the shooting and slept but remembered that
Jackson arrived sometime later in the night. Id. At
trial, the Commonwealth presented the testimony of
Amber Baker, Jackson’s ex-girlfriend, on this point. Id.
Baker testified that Jackson arrived at her apartment
within ten to fifteen minutes of the shooting looking
scared and watching out her screen door for
approximately twenty minutes before leaving. Id.
It was determined that Washington died
instantaneously and his cause of death was a gunshot
wound to the lower back right part of his skull. Id.
Although police never recovered a weapon, the bullet
in Washington’s skull was consistent with a .45 caliber
automatic handgun. Id. The medical examiner noted
that Washington did not have any defensive wounds
but did have a contusion over his left eyebrow and
lacerations over his left cheekbone. Id.
B. Procedural Background
Less than two weeks after these events, a grand
jury in Jefferson County, Kentucky, indicted Jackson
on charges of (1) murder under KRS § 507.020 and (2)
tampering with physical evidence under KRS 524.100
(DN 15-12, at pp. 5-6). The case proceeded to a jury
trial in Jefferson County Circuit Court. The jury found
Jackson guilty of both charges. (DN 15-16, at pp.
19-20). The trial court sentenced Jackson to fifty years

39a
imprisonment for murder and one year imprisonment
for tampering with physical evidence, to run
concurrently. (Id. at p. 40).
Jackson timely appealed his convictions to the
Supreme Court of Kentucky. (DN 15-4). Jackson’s
counsel raised ten allegations of error on appeal. (Id.).
The Supreme Court of Kentucky affirmed Jackson’s
judgment of conviction and sentence in its entirety on
January 21, 2010. Jackson, 2010 WL 252244, at *13.
He did not file a writ of certiorari with the United
States Supreme Court.
Jackson next filed a pro se RCr 11.42 collateral
attack in the Jefferson Circuit Court on January 31,
2011. He alleged seven claims of ineffective assistance
of counsel and a claim of cumulative error. (DN 15-8;
DN 15-9). The Jefferson Circuit Court appointed
Jackson counsel, but his counsel declined to
supplement Jackson’s RCr 11.42 motion. Instead,
Jackson filed a supplemental pro se RCr 11.42 motion
raising three additional grounds of ineffective
assistance of counsel. The Jefferson Circuit Court held
an evidentiary hearing on July 19, 2013, where
Jackson’s trial counsel and Jackson’s sister testified,
but the court ultimately denied his RCr 11.42 motion.
(Id. at p. A232). Jackson appealed five of his RCr 11.42
claims to the Kentucky Court of Appeals, which
affirmed the state trial court’s decision. Jackson v.
Commonwealth, No. 2013-CA-001727-MR, 2015 WL
1648058 (Ky. Ct. App. Apr. 10, 2015). Jackson then
sought discretionary review from the Supreme Court
of Kentucky, but his request was denied on February
10, 2016. (DN 15-10, at p. A306).

40a
One week later, Jackson filed the instant
petition for writ of habeas corpus, raising the ten
claims from his direct appeal, the five claims of
ineffective assistance of counsel from his RCr 11.42
motion, and a claim of cumulative error. (DN 1).
CONCLUSIONS OF LAW
A. Standard of Review
The federal habeas statute, as amended in the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”), provides relief from a state conviction if
the petition satisfies one of the following conditions:
The [state court’s] adjudication of the
claim—
(1) resulted in a decision that was
contrary to, or involved an unreasonable
application of, clearly established Federal
law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based
on an unreasonable determination of the
facts in light of the evidence presented in
the State court proceeding.
28 U.S.C. § 2254(d).
The Supreme Court of the United States has
carefully distinguished federal habeas review from
review on direct appeal. As to § 2254(d)(1), when the
state court articulates the correct legal rule in its

41a
review of a claim, a “federal habeas court may not
issue the writ simply because that court concludes in
its independent judgment that the relevant state-court
decision applied clearly established federal law
erroneously or incorrectly.” Williams v. Taylor, 529
U.S. 362, 411, 120 S. Ct. 1495, 146 L.Ed.2d 389 (2000);
see also Tolliver v. Sheets, 594 F.3d 900, 916 (6th Cir.
2010). Instead, the Court must ask “whether the state
court’s application of clearly established federal law
was objectively unreasonable.” Williams, 529 U.S. at
409. The phrase “contrary to” means “‘diametrically
different,’ ‘opposite in character or nature,’ or
‘mutually opposed.’” Id. at 405 (citing Webster’s Third
New International Dictionary 495 (1976)). Thus, under
the “contrary to” clause of § 2254(d)(1), the Court may
grant the petition if (a) the state court arrives at a
conclusion opposite to that reached by the Supreme
Court on a question of law; or (b) the state court
decides a case differently than the Supreme Court “has
on a set of materially indistinguishable facts.” Id. at
405-06, 412-13.
As to § 2254(d)(2), a federal habeas court may
not substitute it’s evaluation of the state evidentiary
record for that of the state trial court unless the state
determination is unreasonable. Rice v. Collins, 546
U.S. 333, 341-42, 126 S. Ct. 969, 163 L.Ed.2d 824
(2006). This subsection applies when a petitioner
challenges the factual determinations made by the
State court. See Mitzel v. Tate, 267 F.3d 524, 537 (6th
Cir. 2001) (challenging the state court’s determination
that the evidence did not support an aiding and
abetting suicide instruction); Clark v. O’Dea, 257 F.3d
498, 506 (6th Cir. 2001) (challenge to state court’s
factual determination that Sheriff has not seen letter

42a
prior to Clark’s trial).
B. Jackson’s Claims from Direct Appeal
1. Harmless Error Claims
Three of Jackson’s habeas claims challenge the
Kentucky Supreme Court’s finding that certain errors
committed by the trial court were “harmless.” When a
state appellate court has determined – consistent with
the standard in Chapman v. California, 386 U.S. 18,
87 S. Ct. 824, 17 L.Ed.2d 705 (1967) – that a federal
constitutional error is harmless beyond a reasonable
doubt, both AEDPA’s § 2254(d) and the “actual
prejudice” requirement first articulated in Brecht v.
Abrahamson, 507 U.S. 619, 113 S. Ct. 1710, 123
L.Ed.2d 352 (1993) impel that deference be given to
the state court’s decision. See Davis v. Ayala, -- U.S. --,
135 S. Ct. 2187, 2197, 192 L.Ed.2d 323 (2015) (quoting
Fry v. Pliler, 551 U.S. 112, 120, 127 S. Ct. 2321, 168
L.Ed.2d 16 (2007)). The federal habeas court “need not
formally apply both” tests because “the Brecht
standard subsumes the requirements that § 2254(d)
imposes . . .” Id. at 2198.
A petitioner is not entitled to relief based on
trial error, under Brecht, unless he can establish that
it resulted in “actual prejudice.” Id. at 2197 (quoting
Brecht, 507 U.S. at 619) (additional citation omitted).
Relief is only proper, “if the federal court has “grave
doubt about whether a trial error of federal law had
substantial and injurious effect or influence in
determining the jury’s verdict.’” Id. at 2198 (quoting
O’Neal v. McAninch, 513 U.S. 432, 436, 115 S. Ct. 992,
130 L.Ed.2d 947 (1995)). As the Supreme Court has

43a
summarized, a petitioner “must show that the state
court’s decision to reject his claim was so lacking in
justification that there was an error well understood
and comprehended in existing law beyond any
possibility for fairminded disagreement.” Id. at
2198-99 (quoting Harrington v. Richter, 562 U.S. 86,
103, 131 S. Ct. 770, 178 L.Ed.2d 624 (2011)).
a. Failure to Instruct on Self Protection
(Ground 1)
Jackson first takes issue with the Kentucky
Supreme Court’s harmless error determination
regarding the trial court’s denial of self-protection jury
instructions as to the lesser-included offenses of
second-degree manslaughter and reckless homicide.
(DN 1-1, at p. 6). At the conclusion of the trial, the
court proffered instructions to the jury on the offenses
of murder, second-degree manslaughter, and reckless
homicide. The murder instruction included an
additional element that required the Commonwealth
to prove that Jackson did not act in self-protection.
Neither the second-degree manslaughter instruction
nor the reckless homicide instruction included a
self-protection element. Although Jackson challenged
this omission, the trial court concluded that
self-protection was not an available defense to the
“non-intentional” offenses of second-degree
manslaughter and reckless homicide.
On appeal, the Kentucky Supreme Court found
that the trial court abused its discretion in denying
Jackson’s self-protection instruction for the instructed
offenses of second-degree manslaughter and reckless
homicide based on Elliott v. Commonwealth, 976

44a
S.W.2d 416, 422 (Ky. 1998) and Commonwealth v.
Hager, 41 S.W.3d 828, 833 n. 1 (Ky. 2001). Jackson,
2010 WL 252244, at *9. But because this error did not
have “substantial influence” on Jackson’s trial, the
Kentucky Supreme Court found the error was
harmless. Id. at *9-10. The court emphasized that in
spite of the error, the jury chose to convict Jackson
under “the correctly phrased instruction of murder,
one which properly incorporated the Commonwealth’s
additional burden to disprove [Jackson’s]
self-protections claim beyond a reasonable doubt.” Id.
at *10.
Now, Jackson claims the Kentucky Supreme
Court’s finding of harmless error was improper
because it denied him the right to present a defense.
(DN 1-1, at p. 6; DN 26, at p. 4). As an initial matter,
instructional error is subject to harmless error
analysis. See Hedgepeth v. Pulido, 555 U.S. 57, 60-61,
129 S. Ct. 530, 172 L.Ed.2d 388 (2008). Although the
Kentucky Supreme Court did not cite to Chapman, 386
U.S. 18, it clearly found the instructional error was
harmless beyond a reasonable doubt. In order for
Jackson to succeed, therefore, he must demonstrate
that he was actually prejudiced by the omission of
self-protection instructions for second-degree
manslaughter and reckless homicide. Where an alleged
error is failure to give an instruction, a petitioner’s
burden is “especially heavy” because “[a]n omission or
an incomplete instruction, is less likely to be
prejudicial than a misstatement of the law.”
Henderson v. Kibbe, 431 U.S. 145, 155, 97 S. Ct. 1730,
52 L.Ed.2d 203 (1977).
Although

the

trial

court

denied

a

45a
“self-protection” element in the second-degree
manslaughter and reckless homicide instructions, the
jury instructions “as a whole” did not render the
instructions or the trial fundamentally unfair. See
Scott v. Mitchell, 209 F.3d 854, 882 (6th Cir. 2000).
The trial court included a self-protection instruction
within “Instruction No. 1 - Murder,” the charge upon
which the jury ultimately convicted Jackson. (DN
15-16, at p. 6). The trial court also included
“Instruction No. 5 – Self-Protection,” which specified
that even if Jackson might otherwise be guilty of an
offense described in “Instruction No. 1 [Murder], No. 2
[Manslaughter in the Second Degree], or No. 3
[Reckless Homicide]” that if at the time “Jackson
believed that physical force was then and there about
to be used upon him, he was privileged to use such
physical force as he believed to be necessary in order
to protect himself against it . . .” (Id. at pp. 10-12).
Because Jackson was convicted under the
correctly-phrased murder instruction and because
Jackson does not otherwise prove that this error
prejudiced his entire trial, the Kentucky Supreme
Court’s harmless error determination does not warrant
habeas relief.
b. Limited Impeachment of Prosecution Witness
(Ground 3)
Jackson also disagrees with the Kentucky
Supreme Court’s determination that the trial court’s
error in limiting his ability to impeach a prosecution
witness was harmless. (DN 1-1, at p. 11). At trial, the
Commonwealth called Amber Baker, Jackson’s
ex-girlfriend, to testify that Jackson came to her
apartment approximately ten minutes after the

46a
shooting, acting scared and looking out her screen
door. Baker testified this occurred between 11:30 pm
and 1:30 am. On cross-examination, Jackson’s counsel
attempted to impeach Baker by asking whether she
recalled giving a prior statement to investigator Joy
Aldrich, but Baker testified that she could not recall
the statement. After a bench conference, the court
determined that Aldrich would have to testify as to the
contents of the report and Jackson’s counsel could not
ask Baker about the statement because she could not
recall it. The next day, Aldrich testified to the report.
After another bench conference, the court ruled that
Aldrich could not read Baker’s statement aloud to
impeach her because Baker’s denial was not evasive
but rather an inability to recall.
The Kentucky Supreme Court found the trial
court erred in limiting Jackson’s ability to impeach
Baker because Baker’s inability to recall speaking with
Aldrich constituted inconsistency for purposes of KRE
613. Jackson, 2010 WL 252244, at *8. The court,
nevertheless, concluded that this error was harmless
because “the substantive value of Baker’s prior
statement was quite low” and because Baker’s
testimony was later called into question when
Jackson’s counsel questioned Detective Cohen about
Baker’s statements that were substantially similar to
those she made to Aldrich. Id. Based on those
considerations, the court found Baker’s limited
impeachment did not substantially sway Jackson’s
conviction. Id. (citing Winstead v. Commonwealth, 283
S.W.3d 678, 688-89 (Ky. 2009)).
Jackson presently argues that the Kentucky
Supreme Court’s opinion is contrary to or involved an

47a
unreasonable application of Alford v. United States,
282 U.S. 687, 75 L. Ed. 624, 51 S. Ct. 218 (1931). (DN
1-1, at pp. 11-12). According to Jackson, “[i]t has
repeatedly been held that a trial court abuses its
discretion when it completely bars exploration of a
relevant subject on cross-examination[,]” including the
government witness’s credibility. (Id. at p. 13). Jackson
posits that the trial court’s limiting of Baker’s
cross-examination violated his confrontation clause
rights by denying a substantial right of a safeguard
essential to a fair trial. (Id. at pp. 14- 15).
In Alford, the Supreme Court held that
“[c]ross-examination of a witness is a matter of right.”
282 U.S. at 691. It is well-established, however, that
the right is not absolute, see United States v. Beverly,
369 F.3d 516, 535 (6th Cir. 2004), and trial courts
retain wide latitude in imposing reasonable limits on
cross-examination. Further, a trial court’s limitation of
cross-examination is generally subject to the harmless
error analysis. See Delaware v. Van Arsdall, 475 U.S.
673, 680-81, 106 S. Ct. 1431, 89 L.Ed.2d 674; Arizona
v. Fulminante, 499 U.S. 279, 307, 111 S. Ct. 1246, 113
L.Ed.2d 302 (1991). When conducting harmless-error
analysis of Confrontation Clause violations in the
Sixth Circuit, courts assess the prejudicial impact
under the “substantial and injurious effect” standard
in Brecht by applying the factors from Delaware v. Van
Arsdall. Id. (citing Jensen v. Romanowski, 590 F.3d
373, 379 (6th Cir. 2009)). The Van Arsdall factors
include “the importance of the witness’ testimony in
the prosecution’s case, whether the testimony was
cumulative, the presence or absence of evidence
corroborating or contradicting the testimony of the
witness on material points, the extent of

48a
cross-examination otherwise permitted, and . . . the
overall strength of the prosecution’s case.” 475 U.S. at
684.
Applying these factors, the Court does not have
grave doubt as to whether the “error” at Jackson’s trial
substantially influenced the jury. First, it is important
to note that the Kentucky Supreme Court did not find
the trial court violated the Sixth Amendment but,
rather, found the trial court erred in prohibiting
impeachment by prior inconsistent statement under
KRE 613 and Kentucky case law. Jackson, 2010 WL
252244, at *8. Nonetheless, even if the trial court
violated the Sixth Amendment, Jackson cannot prove
the error substantially influenced the jury’s decision.
The testimony at issue was Baker’s interview
with Investigator Aldrich, in which Baker stated that
Jackson arrived at her house at 11:00 pm and omitted
whether she heard gunshots or observed Jackson
acting scared. This testimony differed slightly from the
testimony Baker gave on direct examination at trial
but does not cumulatively render her testimony
contradictory. A review of the trial CDs demonstrates
that trial counsel was not otherwise limited during her
fifteen-minute cross-examination of Baker, as she was
permitted to question Baker about Jackson’s phone
calls to her from prison, about gossip in the Iroquois
Park neighborhood, and about her interaction with
Jackson on the night of the crime in her apartment.
Trial counsel’s cross-examination also revealed that
Baker first stated that Jackson seemed scared on the
night of the crime and that he came to her apartment
after the shots were fired on the day before trial to
prosecutors. Additionally, the prosecution’s case did

49a
not rest solely on Baker’s testimony. The prosecution
provided testimony from two eyewitnesses to the crime
and testimony from Dominque Rudolph, who also had
contact with Jackson on the night of the crime.
Taking trial counsel’s cross-examination of
Baker as a whole, the Court finds the trial court’s error
did not have a substantial and injurious effect on
Jackson’s case and, as a result, the Kentucky Supreme
Court’s harmless error determination is not contrary
to or an unreasonable application of clearly established
federal law.1
c. Inadmissible Reference to Possession of Handgun
(Ground 7)
Next Jackson takes issue with the Kentucky
Supreme Court’s holding that the admission of
testimony regarding Jackson’s possession of a handgun
unrelated to the offense being tried was not reversible
error. (DN 1-1, at p. 20). At trial, the court permitted
Amber Baker to testify that three to four days before
the shooting she had seen Jackson in possession of a
small, silver handgun. The statements from Ditto and
Scott at trial, however, indicated that a different, black
handgun was used in the shooting of Washington.

1

Jackson also argues that the Kentucky Supreme Court’s decision
was “based on an unreasonable determination of the facts[.]” (DN
1-1, at p. 11). Yet Jackson fails to cite to any facts or develop this
argument, and the Court will not address this cursory claim.
Jackson similarly makes unsupported “unreasonable
determination of the facts” arguments in numerous other claims
in his petition. This Court will only address Jackson’s factual
challenges where he has offered support for his claims.

50a
Based on this discrepancy and because a handgun was
never recovered, Jackson argued the admission of
Baker’s testimony was prejudicial.
The Kentucky Supreme Court agreed with
Jackson that the probative value of Baker’s statement
did not outweigh the prejudicial effect. Jackson, 2010
WL 252244, at *6. Even though the Kentucky Supreme
Court found the trial court abused its discretion in
that respect, it decided the effect was ultimately
harmless. Id. The court noted that the error did not
have “substantial influence” upon Jackson’s trial and
did not “substantially sway” his conviction because
independent evidence strongly suggested Jackson’s
guilt. Id. The independent evidence noted by the court
included evidence that Jackson phoned Baker from
prison and warned her not to tell investigators that he
was known for having a gun, the fact that neither
Washington nor Jackson had defensive wounds, that
Jackson fled from the scene of the crime, that no
murder weapon was recovered, that Jackson
attempted to dispose of his clothes, and that Ditto saw
Jackson threaten and intentionally strike an unarmed
Washington with a loaded handgun. Id.
In his habeas claim, Jackson argues the
Kentucky Supreme Court’s determination was
contrary to or an unreasonable application of United
States v. McFadyen-Snider, 552 F.2d 1178 (6th Cir.
1977), cert. denied, 435 U.S. 995, (1978). Jackson also
provides an in depth discussion of KRE 404, arguing
that Baker’s testimony about him carrying a silver
handgun days before the crime is plainly proscribed by
both sections (a) and (b). Neither of these arguments
merits relief. Firstly, the Supreme Court denied

51a
certiorari in McFadyen-Snider v. United States, and,
therefore, it cannot constitute clearly established
federal law. See Jones v. Jamrog, 414 F.3d 585, 591
(6th Cir. 2005). Secondly, the Kentucky Supreme
Court agreed with Jackson’s current arguments –
specifically that the Commonwealth’s proffered reason
for introducing Baker’s testimony was a use prohibited
by KRE 404(b) and that the probativeness of the
testimony was minimal under KRE 403. Jackson, 2010
WL 252244, at *6. It is also necessary to clarify that
because the Kentucky Supreme Court found this was
an error in the application of state evidentiary law, it
is generally not cognizable on habeas review. See Bugh
v. Mitchell, 329 F.3d 496, 512 (6th Cir.2003) (quoting
Walker v. Engle, 703 F.2d 959, 962 (6th Cir. 1983)).
As for the court’s harmless error determination,
Jackson argues in his reply that whether or not there
was sufficient evidence on which he could have been
convicted without the prejudicial testimony is not the
focus of the harmless error analysis. (DN 26, at p. 20
(quoting United States v. Desantis, 134 F.3d 760, 769
(6th Cir. 1998)). Rather, Jackson argues the correct
inquiry is “whether there is a reasonable probability
that the evidence complained of might have
contributed to the conviction.” (Id. (quoting Desantis,
134 F.3d at 769)). He explains that the prior bad-act
testimony is particularly damaging in that it only
suggests that he was a bad person and threat to
society to the jury. (Id.). Jackson specifically points out
that Juror 24 stated in voir dire that if evidence
showed Jackson was carrying a gun, he would think
Jackson was more likely to commit a crime, and Juror
24 did not say whether he could put those feelings
aside to listen to the evidence. (Id. at pp. 20-21). To

52a
Jackson, these statements from Juror 24 and the fact
that the admissible evidence was far from
overwhelming as to who actually had the gun on the
night of the murder, demonstrates a reasonable
probability that Baker’s “unrelated silver handgun”
testimony contributed to his conviction.
The Court agrees with Jackson that the proper
inquiry on habeas review is whether “there is a
reasonable possibility that the evidence complained of
might have contributed to the conviction.” See
Chapman v. California, 386 U.S. 18, 25 (1967).
Admission of bad-acts evidence “constitutes ‘harmless
error’ if the other record evidence of guilt is
overwhelming, eliminating any fair assurance that the
conviction was substantially swayed by the error.”
United States v. Hardy, 643 F.3d 143, 153 (6th Cir.
2011), cert. denied, 565 U.S. 1063 (2011). To answer
these questions, the court reviews in detail the trial
record and emphasizes the evidence adduced at trial.
Boone v. Marshall, 591 F. Supp. 172, 175 (S.D. Ohio
1984) (citing United States v. Hasting, 461 U.S. 499,
510, 103 S. Ct. 1974, 76 L.Ed.2d 96 (1983); Chapman,
386 U.S. at 24) (additional citations omitted)).
Here, there is no reasonable possibility that the
evidence complained of might have contributed to
Jackson’s conviction. Baker’s testimony as to the silver
handgun was brief and, as the Kentucky Supreme
Court noted, the other record evidence of Jackson’s
guilt was overwhelming. The jury could have readily
inferred that Jackson possessed a handgun based on
the whole of the trial record. The Court, therefore,
believes, beyond a reasonable doubt, that the trial
court would have rendered a verdict of guilty, even in

53a
the absence of testimony concerning Jackson’s earlier
possession of a silver handgun. Having concluded the
error was harmless, the Court recommends denying
habeas relief for this claim.
2. Admissibility of Testimony Regarding the
Position of the Victim’s Body (Ground 2)
Jackson disagrees with the Kentucky Supreme
Court’s determination that Officer King and Detective
Cohen’s testimony regarding the position of
Washington’s body was proper lay testimony. (DN 1-1,
at pp. 7-8). At Jackson’s trial, the Commonwealth
called Officer King and Detective Cohen to testify as to
their observations at the crime scene and their
opinions as to several photographs displaying the
positioning of Washington’s body. Both Officer King
and Detective Cohen testified that the positioning of
Washington’s body was inconsistent with a fight or a
struggle. Jackson objected to this testimony as being
based on speculation. Although the trial court
overruled Jackson’s objections, it required both men to
establish a foundation as to their experience.
The Kentucky Supreme Court found that both
witnesses’ opinions were admissible as lay opinions
under Kentucky Rule of Evidence 701 because the
witnesses rationally drew inferences from their
first-hand perceptions at the crime scene. Jackson,
2010 WL 252244, at *5. While recognizing that the
jury had photographs of the scene, the Kentucky
Supreme Court remarked that Officer King and
Detective Cohen’s eyewitness testimony on the subject
matter could help the jury with their interpretation of
the fact at issue – namely, Jackson’s claim of

54a
self-defense. Id.
Jackson now argues the Kentucky Supreme
Court’s decision was contrary to or involved an
unreasonable application of Allen v. United States, 479
U.S 1077, 107 S. Ct. 1271, 94 L.Ed.2d 132 (1987). (DN
1-1, at p. 8). Jackson explains that because the
photographs of Washington’s body at the crime scene
were high quality, clear, and complete, and obviously
reveal the characteristics Officer King and Detective
Cohen described, their testimony did not aid the jury
in determining whether a struggle had occurred. (Id.
at pp. 8-11).
Jackson’s reliance on Allen is misplaced. In that
case, the defendant Lorenzo Allen was convicted of
armed bank robbery and appealed his conviction
arguing the testimony of a police officer and parole
officer identifying him and his co-defendant as the
individuals appearing in bank surveillance
photographs was improper. Allen, 787 F.2d 933, 935-36
(4th Cir. 1986). The Fourth Circuit found no error in
the lay witness testimony and affirmed Allen’s
conviction. Id Allen subsequently petitioned for a writ
of certiorari to the Supreme Court, which was granted.
Allen, 479 U.S. at 1077. The Supreme Court then
vacated the Fourth Circuit’s judgment on grounds not
involving the lay-witness testimony issue and
remanded the case for further consideration in light of
Griffith v. Kentucky, 479 U.S. 314, 107 S. Ct. 708, 93
L.Ed.2d 649 (1987).2 Allen, therefore, is not “clearly

2

In Griffith, the United States Supreme Court held that a new
rule for the conduct of criminal prosecutions, such as the ruling in

55a
established Federal law, as determined by the
Supreme Court” because the Supreme Court did not
issue a substantive opinion and remanded the case
based on grounds unrelated to the lay witness
testimony issue. See Jones v. Jamrog, 414 F.3d 585,
591 (6th Cir. 2005) (“A legal doctrine is not ‘clearly
established federal law, as determined by the Supreme
Court’ unless it is based on ‘holdings, as opposed to the
dicta, of the Court’s decisions as of the time of the
relevant state-court decision.’”) (quoting Williams v.
Taylor, 529 U.S. at 412). No relief is warranted under
§ 2254(d)(1).
Jackson also believes the Kentucky Supreme
Court based its decision on an unreasonable
determination of the facts in light of the evidence
presented in the state court proceedings. Specifically,
Jackson argues that all of the eye witnesses from the
incident testified that he and Washington were
shoving each other immediately prior to the gun going
off, which controverts the opinions of Officer King and
Detective Cohen. (Id. at pp. 10-11). There was no
“unreasonable determination of the facts,” however,
because the Kentucky Supreme Court based its
decision to admit the lay testimony of Officer King and
Detective Cohen on its appropriateness under KRE
701. “Errors in application of state law, especially with
regard to the admissibility of the evidence, are usually

Batson v. Kentucky¸476 U.S. 79, 106 S. Ct. 1712, 90 L.Ed.2d 69
(1986) applies retroactively to all cases, state or federal, pending
on direct review or not yet final, with no exception for cases in
which the new rule constitutes a “clear break” with the past. 479
U.S. at 314. This holding has no bearing on Jackson’s habeas
claim involving the admissibility of photographic evidence.

56a
not cognizable in federal habeas corpus.” Bugh v.
Mitchell, 329 F.3d 496, 512 (6th Cir.2003) (quoting
Walker v. Engle, 703 F.2d 959, 962 (6th Cir. 1983)); see
also Estelle v. McGuire, 502 U.S. 62, 67-68, 112 S. Ct.
475, 116 L.Ed.2d 385 (1991) (“[I]t is not the province of
a federal habeas court to reexamine state-court
determinations on state-law questions.”). Further,
merely noting inconsistency between eyewitness
testimony of the incident and the opinions of law
enforcement does not render the state court’s factual
findings unreasonable. Jackson’s § 2254(d)(2)
argument is, thus, unsuccessful.
3. Initial Aggressor – Provocation instruction
(Ground 4)
Jackson argues the Supreme Court of Kentucky
erred in upholding the inclusion of a provocation
qualification in the jury instruction on self-defense.
(DN 1-1, at p. 15). The trial court included a
provocation qualification to “Instruction No. 5 – Self
Protection” pursuant to KRS 503.060(2). (DN 15-16, at
pp. 10-12). The Kentucky Supreme Court found this
instruction was proper because the testimony at trial
indicated that Jackson may have intentionally
provoked Washington. Jackson, 2010 WL 252244, at
*10-11.
This determination, Jackson argues, is contrary
to or involves an unreasonable application of Estelle v.
McGuire and was an unreasonable determination of
the facts. (DN 1-1, at p. 15). Jackson recognizes that it
is well-established that a provocation qualification in
a self-defense instruction does not violate due process
if the evidence at trial was sufficient to warrant such

57a
an instruction but argues that there was no evidence
that he introduced the firearm into the physical
altercation and that the evidence demonstrates
Washington was actually the initial aggressor. (Id. at
pp. 16-17).
First, Estelle has no holding that undermines
the Kentucky Supreme Court’s decision. In fact, Estelle
states “it is not the province of a federal habeas court
to reexamine state-court determinations on state-law
questions.” 502 U.S. at 63. Second, in order to furnish
a ground for habeas relief, a defective jury instruction
must impinge on a federal constitutional right. A
petitioner seeking habeas relief based on an alleged
constitutional error from a jury instruction that quotes
a state statute faces an “especially heavy” burden. See
Waddington v. Sarasud, 555 U.S. 179, 129 S. Ct. 823,
172 L.Ed.2d 532 (2009) (quoting Henderson 431 U.S. at
155). The pertinent inquiry is “whether the ailing
instruction by itself so infected the entire trial that the
resulting conviction violates due process.” Estelle, 502
U.S. at 72 (quoting Cupp v. Naughten, 414 U.S. 141,
147, 94 S. Ct. 396, 400-01, 38 L.Ed.2d 368 (1973)
(additional citation omitted)). The Court concludes
that including a provocation jury instruction did not
result in a conviction that violated due process and the
Kentucky Supreme Court’s decision was not contrary
to or an unreasonable application of Estelle.
As for Jackson’s factual challenge, the Court
finds the propriety of the provocation instruction was
not an unreasonable determination of the facts. The
testimony at trial created an issue of fact as to
whether Jackson intentionally provoked Washington
to assault him and precipitate his murder. At trial,

58a
Jackson’s testimony regarding the sequence of events
during the altercation differed from Ditto’s and Scott’s.
Ditto testified that Jackson and Washington were
engaged in a verbal altercation over Jackson getting a
ride when Jackson hit Washington in the head with a
gun. According to Ditto, Jackson then hit Washington
in the head with a gun the second time, causing the
gun to fire and kill Washington. Jackson, on the other
hand, indicated that he was scuffling with Washington
when Washington produced a gun. This testimony
clearly created an issue of fact as to whether Jackson
intentionally provoked Washington, and, therefore, the
Kentucky Supreme Court did not base its decision on
an improper determination of the facts.
4. Failure to Instruct on Voluntary Intoxication
(Ground 5)
Jackson’s next challenge to the jury instructions
involves the trial court’s denial of his tendered
“voluntary intoxication instruction.” (DN 1-1, at p. 17).
The Kentucky Supreme Court determined that the
trial court properly denied his requested voluntary
intoxication instruction because “no evidence indicated
that he was so impaired or intoxicated at the time the
offenses were committed such that he was unable to
form the requisite mens rea for murder (KRS 507.040)
or tampering with evidence (KRS 524.100).” Jackson,
2010 WL 252244, at *11-12. Although testimony
indicated that Jackson was “high” when he committed
the offenses, the Kentucky Supreme Court found the
evidence did not show he was so impaired that he did
not know what he was doing. Id. at *12. The court
pointed out that Jackson’s defense actually rested
upon his detailed account of exactly what happened

59a
before, after, and during the crime. Id.
Jackson again argues that the Kentucky
Supreme Court’s decision was contrary to or involved
an unreasonable application of Estelle, 502 U.S. at 62.
(DN 1-1, at p. 17). Because “murder” under KRS
507.020 is a specific-intent crime and because there is
substantial evidence from trial of his voluntary
intoxication at the time of the incident, Jackson
maintains the trial court should have instructed the
jury as to his voluntary intoxication defense. (Id. at pp.
17-18).
Like the provocation instruction, the Kentucky
Supreme Court affirmed the trial court’s denial of a
voluntary intoxication instruction based on Kentucky
law, which does not generally fall into the realm of
federal habeas review. Rockwell v. Palmer, 559 F.
Supp. 2d 817, 828 (W.D. Mich. 2008) (a claim based
upon an incorrect jury instruction generally is not
cognizable on habeas review). Again, the burden on a
habeas petitioner is especially heavy when he argues
a jury instruction was improperly omitted, because it
is less likely to be prejudicial than a misstatement of
the law. See Henderson, 431 U.S. at 155. Additionally,
the United States Supreme Court has held that a
criminal defendant is not constitutionally entitled to a
voluntary intoxication defense. Montana v. Egelhoff,
518 U.S. 37, 56, 116 S. Ct. 2013, 135 L. Ed. 2d 361
(1996); see also Hill v. Mitchell, 400 F.3d 308 (6th Cir.
2005) (holding habeas petitioner was not entitled to
relief because of trial court’s failure to instruct on
cocaine intoxication).
In the instant case, under Kentucky law,

60a
voluntary intoxication may be a defense where it
negates “the existence of an element of an offense’ –
most often, the mens rea. KRS 501.080(1). Kentucky
courts have clarified that to warrant a voluntary
intoxication instruction, there must be evidence not
only that the defendant was drunk, but that [he] was
so drunk that [he] did not know what [he] was doing.”
Springer v. Commonwealth, 998 S.W.2d 439, 451-52
(Ky. 1999) (citation omitted).
After reviewing the trial record, the Court
agrees with the Supreme Court of Kentucky’s
conclusion that while there was some evidence that
Jackson ingested Xanax pills prior to shooting
Washington, the evidence did not establish that
Jackson was so impaired he did not know what he was
doing. Based on this analysis, Jackson’s argument that
“so long as there was some evidence relevant to the
issue of voluntary intoxication, the credibility and
force of such evidence must be for the jury[,]” is not
persuasive. The Court, accordingly, finds the Kentucky
Supreme Court’s ruling was not contrary to, or an
unreasonable application of, firmly established federal
law.
5. Exclusion of Photographic Evidence
(Ground 6)
Jackson next disputes the trial court’s exclusion
of photographic evidence demonstrating bruising to his
wrist. (DN 1-1, at pp. 19-20). During his trial, Jackson
attempted to introduce his printed “mug shot,” which
he argued showed redness along his wrists and
supported his claim that Washington held him by his
wrists as the two struggled over the handgun. The

61a
Commonwealth objected to the low-quality of the
print-out and suggested Jackson introduce a similar
police photograph from just after his arrest. Jackson
refused to stipulate to the police photograph’s
admission. The trial court ultimately concluded the
“mug shot” Jackson sought to enter was inadmissible
due to its poor quality.
The Kentucky Supreme Court found the trial
court’s exclusion of the photograph was not “arbitrary,
unreasonable, unfair, or unsupported by sound legal
principles” because the print-out produced a yellowing
effect, giving greater contrast to areas of darker
pigmentation or low light. Jackson, 2010 WL 252244,
at *9. The court explained that under KRE 403, the
print-out of the “mug shot” left the evidence so
inaccurate that its probative value was “substantially
outweighed by the danger of . . .misleading the jury.”
Id. (quoting KRE 403).
Now, Jackson argues the Kentucky Supreme
Court’s decision was contrary to or involved an
unreasonable application of California v. Trombetta,
467 U.S. 479, 104 S. Ct. 2528, 81 L.Ed.2d 413 (1984).
(DN 1-1, at pp. 19-20). Jackson feels that because the
photograph was properly authenticated under KRE
901(a) and (b)(1), the trial court abused its discretion
in excluding it. (Id.).
As an initial matter, Trombetta is inapplicable
to Jackson’s case. In Trombetta, the Supreme Court
addressed whether the due process clause requires law
enforcement agencies to preserve breath samples in
order to introduce the results of breath-analysis. 467
U.S. at 479-80. Jackson’s claim neither involves

62a
preservation of evidence nor breathalyzer samples.
Additionally, since the Kentucky Supreme Court
decided this issue based on the Kentucky Rules of
Evidence, the Court should not consider the claim for
habeas relief. Because Jackson otherwise fails to prove
the trial court’s exclusion of his printed mug-shot was
contrary to or an unreason able application of federal
law, the Court recommends relief on this claim be
denied.
6. Inadmissible Evidence in Jury Deliberations
(Grounds 8 and 14)
On direct appeal, Jackson also argued that he
was denied due process because during deliberations
the jury considered audio recording from a crime scene
video that the trial court had specifically excluded
from evidence. (DN 15-4, at pp. 37-39). The Kentucky
Supreme Court declined to review this claim because
Jackson did not preserve the claim of error at trial and
did not request palpable error review. Jackson, 2010
WL 252244, at *7. Jackson raised the same issue in his
RCr 11.42 motion, couching it as an ineffective
assistance of counsel claim. (DN 15- 9, at p. 13). Since
the jury had already heard the police officer’s live
narration of the crime scene video and there was more
than sufficient evidence presented by the
Commonwealth of Jackson’s guilt, the Kentucky Court
of Appeals found that even if the jury listened to the
recording, it did not alter the outcome of his trial.
Jackson v. Commonwealth, No. 2013-CA-001727-MR,
2015 WL 1648058, at *6 (Ky. Ct. App. Apr. 10, 2015).
Now, Jackson argues the Kentucky Supreme
Court’s opinion was contrary to or involved an

63a
unreasonable application of Smith v. Phillips, 455 U.S.
209 (1982) and Remmer v. United States, 347 U.S. 227
(1954). (DN 1-1, at pp. 24-25). Jackson believes these
cases mandate a hearing be conducted when an
unauthorized private communication or contact with
the jury is revealed. (Id. at pp. 26-27). Because the
trial court did not hold a “Remmer hearing” to inquire
into the jurors’ states of mind, Jackson claims he was
deprived of the opportunity to prove juror bias and
thereby denied a fair trial. (Id. at p. 28).
As noted above, the Kentucky Supreme Court
did not evaluate Jackson’s claim on the merits because
Jackson failed to preserve the error at trial. By failing
to preserve the error, Jackson procedurally defaulted
this claim. Procedural default bars federal habeas
review of this claim unless Jackson “demonstrates
cause for the default and prejudice resulting
therefrom, or that failing to review the claim would
result in a fundamental miscarriage of justice.”
Williams v. Anderson, 460 F.3d 789, 806 (6th Cir.
2006).
Although Jackson doesn’t specifically discuss
“cause” or “prejudice” to excuse his default, he does
argue that the error was not properly preserved due to
ineffective assistance of his trial counsel. (DN 1-1, at
pp. 24-25). It is well-established that ineffective
assistance of counsel can serve as cause to excuse a
procedural default. Murray v. Carrier, 477 U.S. 478,
488, 106 S. Ct. 2639, 91 L.Ed.2d 397 (1986). A claim of
ineffective assistance must also be presented to the
state courts “before it may be used to establish cause
for procedural default.” Id. at 489. Since Jackson
presented his ineffective assistance of counsel claim

64a
based on this same argument in his RCr 11.42 motion
to the Kentucky Court of Appeals, this Court can
proceed with the cause analysis and Jackson’s
challenge to the Kentucky Court of Appeal’s opinion
simultaneously.3
To establish ineffective assistance of counsel, a
defendant must show deficient performance and
resulting prejudice. Knowles v. Mirzayance, 556 U.S.
111, 122, 129 S. Ct. 1411, 173 L.Ed.2d 251 (2009);
Strickland v. Washington, 466 U.S. 668, 687, 104 S. Ct.
2052, 80 L.Ed.2d 674 (1984). The performance inquiry
requires the defendant to “show that counsel’s
representation fell below an objective standard of
reasonableness,” and the court “must judge the
reasonableness of counsel’s challenged conduct on the
facts of the particular case, viewed as of the time of
counsel’s conduct.” Strickland, 466 U.S. at 688, 690.
Surmounting Strickland’s high performance bar is
never an easy task. Premo v. Moore, 562 U.S. 115, 122,
131 S. Ct. 733, 178 L.Ed.2d 649 (2011) (quoting
Padilla v. Kentucky, 559 U.S. 356, 371, 130 S. Ct.1473,
1485, 176 L.Ed.2d 284 (2010)). When the Court
assesses counsel’s performance, it must make every
effort to “eliminate the distorting effects of hindsight,
to reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the conduct from
counsel’s perspective at the time.” Strickland, 466 U.S.
at 689. “The question is whether an attorney’s

3

In Jackson’s habeas petition he alternatively contends that the
Kentucky Court of Appeal’s opinion denying RCr 11.42 relief was
contrary to or involved an unreasonable application of Strickland
v. Washington, 466 U.S. 668. (DN 1-1, at pp. 24-25).

65a
representation amounted to incompetence under
prevailing professional norms, not whether it deviated
from best practices or most common custom.”
Harrington v. Richter, 562 U.S. 86, 88, 131 S. Ct. 770,
178 L.Ed.2d 624 (2011).
Establishing the required prejudice is a likewise
high bar. The prejudice inquiry compels the defendant
“to show that there is a reasonable probability that,
but for counsel’s unprofessional errors, the result of
the proceeding would have been different.” Strickland,
466 U.S. at 694. “A reasonable probability is a
probability sufficient to undermine confidence in the
outcome.” Id. The Court need not conduct the two
prong inquiry in the order identified above or even
address both parts of the test if the defendant makes
an insufficient showing on one part. Id. at 697.
Even if Jackson could establish trial counsel
performed deficiently in failing to properly preserve
this evidentiary issue for direct appeal, he cannot
demonstrate this failure resulted in actual prejudice.
Jackson argues that if the error had been properly
preserved, the trial court would have remanded the
case for a “Remmer hearing” to inquire into the jurors’
states of mind. It is not likely that the trial court
would not have remanded for a Remmer hearing here,
however, because Jackson did not put forth any
evidence that an extraneous influence on a juror
denied him a fair trial. An “extraneous influence” is
one “derived from specific knowledge about or a
relationship with either the parties of their witnesses.”
United States v. Herndon, 156 F.3d 629, 635 (6th Cir.
1998). Examples include “prior business dealings with
the defendant, applying to work for the local district

66a
attorney, conducting an out of court experiment, and
discussing the trial with an employee.” United States
v. Owens, 426 F.3d 800, 805 (6th Cir. 2005). None of
these examples are analogous to the juror’s possible
exposure to the audio/video of the crime scene DVD
during deliberations in this case.
Further, Jackson has not produced evidence
that the jury even viewed and listened to the DVD
during deliberations or evidence that specific prejudice
resulted from the jury’s exposure to the audio/video.
Jackson’s argument is mere speculation. Accordingly,
there is not a reasonable probability that but for trial
counsel’s failure to preserve the error, the result of
Jackson’s proceeding would be different. Jackson is not
entitled to habeas relief on these claims.
7. Failure to Strike Juror for Cause
(Ground 9)
Jackson takes issue with the Supreme Court of
Kentucky’s determination that the trial court did not
abuse its discretion in denying his motion to strike a
prospective juror for cause. (DN 1-1, at pp. 28-29). On
direct appeal, Jackson specifically challenged three
isolated responses from Juror #24, which he believed
demonstrated that the juror could not presume
innocence. The Supreme Court of Kentucky
summarized Juror #24’s challenged conduct as follows:
While defense counsel was explaining the
presumption of innocence to the panel,
she asked whether anyone would agree
that a defendant “was a little guilty of
something” if his case progressed passed

67a
an indictment and to trial. Juror #24
nodded in agreement and answered that
“once a person has gotten this far along,
there’s bound to be some justification for
it to start with.” When defense counsel
asked the juror whether he could still
presume the defendant innocent or treat
the parties “on an even-playing field,” he
first indicated that it would be significant
if the evidence showed the defendant
carried a handgun, but his statement
thereafter was largely inaudible. The
juror then agreed with defense counsel’s
summary of the juror’s statement that if
the evidence showed that the defendant
was carrying a handgun, he would be
more likely to commit a crime. Defense
counsel subsequently asked the juror
whether he could put aside that feeling
and still consider the evidence. His
response, however, was again mostly
inaudible, at one point stating that “it
was hard to say.” Counsel followed,
“because you don’t know what the
evidence is,” to which the juror agreed.
Later in voir dire, Juror #24 nodded his
head in agreement with defense counsel’s
statement that someone carrying a
concealed handgun without a permit
would be more likely to commit a crime.
And then, finally, Juror #24, when asked
whether a defendant’s illegal drug
possession would indicate that he would
be more likely to commit other crimes,
the juror nodded in agreement (with

68a
many others on the panel) and stated
that drug possession often leads to other
crimes.
Jackson, 2010 WL 252244, at *3.
The trial court denied Jackson’s counsel’s
motion to excuse Juror #24 for cause because the
juror’s opinions about drugs and guns, or the mixture
of the two, did not determine whether the juror would
strip Jackson of his presumption of innocence.
Jackson’s trial counsel used a peremptory to strike
Juror #24.
After reviewing the entire voir dire, the
Supreme Court of Kentucky concluded that the trial
court acted appropriately in not striking Juror #24 for
cause because none of his statements revealed an
inability to conform his views to the requirement of the
law, specifically, the presumption of innocence. Id. at
*4. The court indicated that Juror #24’s challenged
responses were to “leading hypothetical questions
posed by defense counsel, all of which asked the juror
to assume certain facts consistent with criminal
behavior.” Id.
Now, Jackson alleges the Kentucky Supreme
Court’s opinion violated Swain v. Alabama, 380 U.S.
202, 13 L.Ed.2d 759, 85 S. Ct. 824 (1965).(DN 1-1, at p.
29). Jackson believes it was conspicuous for the trial
judge to not respond or ask follow-up questions to
Juror #24’s clear declaration that he did not think he
could be a fair juror. (Id. at p. 32). This lack of witness
rehabilitation by the trial court, Jackson claims,
results in actual bias on the part of Juror #24.

69a
The Kentucky Supreme Court’s analysis here is
not contrary to clearly established federal law. Swain
held that a “State’s purposeful or deliberate denial” to
African-Americans of the opportunity to serve as jurors
solely because of race violates the right to equal
protection under the Fourteenth Amendment. 380 U.S.
202 (1965). Batson v. Kentucky, 476 U.S. 79 (1986)
subsequently overruled the portion of Swain which set
forth the necessary evidentiary showing needed to
establish a prima facie case of racial discrimination.
Neither Swain nor Batson affects Jackson’s claim
because Juror #24 was not an African-American and
Jackson makes no equal protection argument.
More applicable to Jackson’s argument is the
United States Supreme Court’s holding in Patton v.
Yount that when a juror is challenged for cause, “the
relevant question is did the juror swear that he could
set aside any opinion he might hold and decide the
case on the evidence, and should the juror’s
protestation of impartiality have been believed.”
Holder v. Palmer, 558 F.3d 328, 339 (6th Cir. 2009)
(citing Patton, 467 U.S. 1025, 2036 (2009)). The
resolution of the question of a juror’s bias is a finding
of fact which is entitled to a “presumption of
correctness” under 28 U.S.C. § 2254(d) and “may only
be overturned where manifest error is shown.” Id.
(citing Patton, 467 U.S. at 1031).
Here, the Court has reviewed the voir dire
proceedings from Jackson’s trial. Nothing in Juror
#24’s testimony indicated that he would reject
Jackson’s presumption of innocence. Jackson fails to
prove that manifest error occurred in this regard, and
the Court finds the Kentucky Supreme Court’s

70a
reasoning on this claim is consistent with clearly
established federal law. This claim provides no basis
for habeas relief.
8. Refusal to Instruct on “No Duty to Retreat”
(Ground 10)
Jackson’s final claim of error from his direct
appeal involves his belief that the trial court’s refusal
to instruct the jury on “no duty to retreat” was
reversible error. (DN 1-1, at pp. 34- 36). The Kentucky
Supreme Court found Jackson’s argument was
meritless based on its decision in Hilbert v.
Commonwealth, where it previously rejected Jackson’s
argument that an instruction on retreat was necessary
to counter the inference that he was under a duty to
avoid the altercation with the victim. Jackson, 2010
WL252244, at *12 (citing Hilbert, 162 S.W. 3d at
925-26 (Ky. 2005)).
Now, Jackson challenges the Kentucky Supreme
Court’s decision that the trial court’s refusal to
instruct the jury on “no duty to retreat” was not error.
He argues the decision is contrary to or an
unreasonable application of California v. Trombetta,
467 U.S. 479 (1984). (DN 1-1, at p. 34). Jackson also
emphasizes that the “no duty to retreat” principle is an
integral part of the Kentucky law of self-defense and
because the jury was not instructed that he had no
duty to retreat, “the possibility that some or all of the
jurors believed Petitioner was obligated to flee or
otherwise avoid the confrontation before defending
himself cannot be eliminated.” (DN 1-1, at pp. 35-36).
First, because the Kentucky Supreme Court

71a
decided Jackson’s “no duty to retreat” argument under
state law grounds, the state court’s interpretation of
state law is binding on this court. See Bradshaw v.
Richey, 546 U.S. 74, 126 S. Ct. 602, 604, 163 L.Ed.2d
407 (2005); Estelle, 502 U.S. at 67-68. Second, as this
Court has repeatedly noted, the burden on a habeas
petitioner is especially heavy when he argues a jury
instruction was improperly omitted, because it is less
likely to be prejudicial than a misstatement of the law.
See Henderson, 431 U.S. at 155. Third, the only
“clearly established federal law” that Jackson cites to
is Trombetta, but he fails to argue how Trombetta
applies to his case.
Regardless of those considerations, the Court
finds Jackson’s argument is unsuccessful because
Hilbert was the applicable law in Kentucky on the “no
duty to retreat” instruction at the time of Jackson’s
trial. In Hilbert, the Kentucky Supreme Court held
that “when the trial court adequately instructs on
self-defense, it need not also give a no duty to retreat
instruction.” 162 S.W.3d 921, 926 (Ky. 2005). In 2006,
the Kentucky legislature codified “the pre-existing ‘no
duty to retreat’” principle by means of Senate Bill 38.
Hannah v. Commonwealth, 306 S.W.3d 509, 514 (Ky.
2010); see also KRS § 503.055; KRS §503.050(4). In
2009, the Kentucky Supreme Court declared “that the
substantive provisions of the 2006 self-defense
amendments (including those portions dealing with ‘no
duty to retreat’)” did not operate retroactively. Id. As
such, the conduct for which Jackson was prosecuted
occurred before the effective date of SB 38 and did not
apply retroactively to his case. Jackson, therefore, has
not demonstrated the Kentucky Supreme Court’s
decision was contrary to or an unreasonable

72a
application of federal law.
C. Jackson’s RCr 11.42 Claims – Ineffective
Assistance of Counsel
1. Failure to Move for a Special Verdict Form
(Ground 11)
In his RCr 11.42 collateral attack, Jackson
argued his trial counsel performed deficiently in failing
to move for a separate verdict form, which would
require the jury to specify whether it was finding
Jackson guilty of intentional or wanton murder. The
Kentucky Court of Appeals found that Jackson’s trial
counsel was not ineffective in this respect because
although it may have been a combination jury
instruction, it did not violate the unanimous verdict
requirement. Jackson v. Commonwealth, No.
2013-CA-001727-MR, 2015 WL 1648058, at *4 (Ky. Ct.
App. Apr. 10, 2015).
Now, Jackson attempts to renew his argument
that trial counsel was ineffective in not objecting to the
combined jury instructions for intentional and wanton
murder. (DN 1-1, at p. 37). As earlier outlined, to prove
ineffective assistance of counsel a petitioner must
establish both that counsel performed deficiently and
that said deficient performance resulted in actual
prejudice. Strickland, 466 U.S. at 687. Although
Jackson argues generally that the verdict form is
unconstitutional and cites to Schad v. Arizona, 501
U.S. 624 (1991) and Kentucky case law, he omits any
argument that this allegedly deficient performance by
trial counsel resulted in actual prejudice. Jackson fails
to establish that the result of his proceeding would

73a
have been different had trial counsel objected to the
combination jury instruction for intentional or wanton
murder. The Court does not recommend habeas relief
as to this claim.
2. Failure to Advise Jackson of the Law
of Self-Defense (Ground 12)
Jackson also argued in his RCr 11.42 motion
that his trial counsel was ineffective by coercing him
into testifying and by misadvising him as to the law of
self-defense and its related components. The Kentucky
Court of Appeals found that “[d]espite trial counsel’s
incorrect assumption that SB 38 would apply to
Jackson’s trial,” her performance was not deficient
because “[i]t was not unreasonable for trial counsel, in
light of SB 38, to seek a no duty to retreat instruction.”
Jackson, 2015 WL 1648058, at *5. Based on trial
counsel’s testimony at the evidentiary hearing that “in
her view, it would have been almost impossible to
establish a claim of self-defense – of which no duty to
retreat is a component . . . –without Jackson’s
testimony” and that “[s]he ultimately left the decision
to testify to Jackson,” the court concluded Jackson
could not establish the first prong of the Strickland
standard. Id.
In his present motion for habeas relief, Jackson
argues that the Kentucky Court of Appeals placed too
great a burden of proof on the defendant to show
prejudice by “totally removing trial counsel’s misadvice
from the equation.” (DN 1-1, at pp. 42-43). Jackson
believes that but for trial counsel’s misadvice
regarding SB 38, there is a reasonable probability that
he would not have testified. (Id. at p. 43).

74a
The Court does not agree. Jackson can neither
establish deficient performance nor prejudice as to this
claim. Trial counsel’s incorrect assumption that SB 38
would apply to Jackson’s case, which led her to seek a
“no duty to retreat” jury instruction, was not deficient
performance. Although trial counsel mistakenly
believed that SB 38 would apply to Jackson’s trial,
tendering a “no duty to retreat” instruction was
reasonable in light of the uncertain applicability of SB
38 and the 2006 amendments. In fact, in Ground 10 of
this same petition, Jackson argued the trial court
erred in not accepting trial counsel’s “no duty to
retreat” instruction.
Jackson’s assertion that trial counsel
misadvised him for the purpose of inducing him to
testify against his will is likewise unsupported. Trial
counsel testified at the RCr 11.42 evidentiary hearing
that she explained to Jackson that, for a theory of
defense to succeed, he would need to testify. She
clarified, however, that it was always Jackson’s choice
to testify and that she left the decision to him. In his
habeas petition, Jackson merely states that he
testified against his will but fails to support this
argument.
Regardless of whether trial counsel performed
deficiently, Jackson does not demonstrate there is a
reasonable probability that but for trial counsel’s
errors, the result of the proceeding would have been
different. Jackson fails to identify how not taking the
stand at trial and not testifying to a theory of
self-defense would have changed the outcome of his
case. Because Jackson cannot produce any evidence
that trial counsel’s advice on self-defense prejudiced

75a
his case, habeas relief is not warranted.
3. Failure to Present Mitigation Witnesses
(Ground 13)
Jackson next argued on state court collateral
review that his trial counsel rendered ineffective
assistance by failing to call any mitigation witnesses
during the sentencing phase of his trial. The Kentucky
Court of Appeals recognized that its suspicions were
heightened when trial counsel chose not to call any
mitigation witnesses during the penalty phase of trial.
Jackson, 2015 WL 1648058, at *5-6. But the court
noted trial counsel’s testimony at the evidentiary
hearing that she was not aware of any mitigation
witnesses, that she believed Jackson was estranged
from his parents, and that she was unable to get into
contact with some of Jackson’s other family members.
Id.
Now Jackson alleges that because trial counsel
uncovered information about his traumatic childhood
experience, she had reason to suspect that worse
details existed, but decided not to interview or contact
his sisters, parents, other family members, neighbors,
or teachers. (DN 1-1, at pp. 46-47). The Warden
counters that Jackson had an opportunity to present
witnesses at his RCr 11.42 evidentiary hearing, but
Jackson only called his sister Rokia Cain, and her
testimony did not support his claim of error. (DN 15-1,
at pp. 17-18).
After reviewing the record, the evidence
demonstrates that trial counsel attempted to contact
mitigation witnesses for Jackson’s case but was not

76a
able to get into contact with them. Trial counsel
explained that mitigation evidence had already been
presented during the guilt phase through Jackson’s
own testimony and the favorable testimony of
Jackson’s so-called “godmother.” Based on these
considerations, it was not unreasonable for the court
to conclude that counsel’s decisions were consistent
with reasonable trial strategy based on her
investigation under Strickland. 2012 WL 3309398 at
*5. Jackson additionally fails to fulfill the prejudice
prong from Strickland. Although Jackson broadly
references that counsel should have called his “sisters,
parents, any other family members, neighbors, or
teachers” to “narrate the true story of [his] childhood
experiences[,]” he fails to provide any specific names of
the mitigation witnesses who should have been called
and does not specify the substance of their testimony.
The Court does not recommend habeas relief as to this
claim.
4. Failure to Move for Cautionary Instruction
as to Police Officer Testimony (Ground 15)
Jackson also feels that the Kentucky Court of
Appeals on collateral review incorrectly found his trial
counsel was not ineffective in failing to request a
cautionary instruction when a police officer offered
both lay and expert testimony at trial. (DN 1-1, at p.
47). The Kentucky Court of Appeals denied Jackson’s
claim on two bases. First, Jackson failed to provide,
and the court could not locate, any Kentucky authority
requiring a cautionary instruction be given when a
witness offers both opinion and expert testimony.
Jackson, 2015 WL 1648058, at *7. Second, there was
no evidence in the case that any witness actually

77a
testified during Jackson’s trial as both a lay and expert
witness. Id.
Jackson currently argues that this
determination is contrary to Daubert v. Merrell Dow
Pharms., 509 U.S. 579 (1993) and Strickland. (DN 1-1,
at p. 47; DN 26, at p. 37). He claims counsel’s failure to
request a cautionary instruction was deficient
performance, which threatened the fairness and
integrity of his proceedings. (Id. at p. 50).
Once again, the Court here finds that Jackson
cannot establish either prong of the Strickland
standard. Jackson cites to Sixth Circuit case law
demonstrating that an officer’s dual testimony is
generally allowed when an adequate cautionary
instruction is permitted, but he does not establish that
his counsel’s failure to request such a cautionary
instruction resulted in constitutionally deficient
performance. Likewise, Jackson has not identified
specific testimony from trial that constituted both lay
and expert testimony. He fails to prove that there is a
reasonable probability that a cautionary instruction
would have changed the outcome of his proceeding.
Relief is not warranted under § 2254(d)(1).
5. Cumulative Error (Ground 16)
Jackson lastly takes issue with the Kentucky
Court of Appeals’ determination that his trial did not
result in cumulative error. (DN 1-1, at pp. 50-53).
Because none of Jackson’s claimed errors raised any
real questions of prejudice, the Kentucky Court of
Appeals denied his cumulative error claim. Jackson,
2015 WL 1648058, at *7.

78a
Jackson now contends that the Kentucky Court
of Appeals found several errors in trial counsel’s
actions and considered the prejudicial effect of each
error alone but did not consider the cumulative effect
of those errors. (DN 1-1, at p. 53). Jackson is mistaken.
In addressing four of Jackson’s five ineffective
assistance of counsel claims, the Kentucky Court of
Appeals specifically noted that Jackson could not meet
the first prong of the Strickland standard, meaning
the Court did not find error in trial counsel’s actions.
In the remaining claim, involving the audio recording
of the crime scene video, the Kentucky Court of
Appeals addressed the second prong of Strickland,
stating, “[e]ven assuming that trial counsel performed
deficiently . . . [w]e are not convinced that the recorded
narration of the crime scene video, even if viewed by
the jury, altered the outcome of Jackson’s case.”
Jackson, 2015 WL 1648058, at *6. The Kentucky Court
of Appeals did not find any of Jackson’s ineffective
assistance of counsel claims resulted in error or
harmless error and, as such, the doctrine of cumulative
error did not apply to warrant relief.
Jackson’s habeas petition does not demonstrate
that the Kentucky Court of Appeals’ finding of no
cumulative error is contrary to or an unreasonable
application of well-established federal law, and the
Court recommends no relief as to this claim.
D. Certificate of Appealability
The final question is whether Jackson is entitled
to a Certificate of Appealability (“COA”) pursuant to
28 U.S.C. § 2253(c)(1)(B) on any or all of the sixteen
grounds raised in his petition. When the Court rejects

79a
a claim on the merits, the petitioner must demonstrate
that reasonable jurists would find the Court’s
assessment of the constitutional claim debatable or
wrong in order for this Court to issue a COA. Slack v.
McDaniel, 529 U.S. 473, 484, 120 S.Ct. 1595, 146
L.Ed.2d 542 (2000).
Here, none of the grounds raised by Jackson
could be reasonably debated. The Kentucky Supreme
Court’s harmless error determinations regarding the
self-protection jury instructions, the limited
impeachment of a prosecution witness, and the
admission of testimony that Jackson carried a
handgun are all well in-line with the controlling
precedent of the United States Supreme Court in
Brecht and Chapman. Jackson does not explain
otherwise or cite to any decision that would call these
conclusions into question. The Court, therefore, does
not recommend a COA issue as to Grounds 1, 3, and 7
of his petition.
Jackson’s other claims his from direct appeal,
including three claims involving jury instructions,
three claims relating to the admissibility of evidence,
and one claim of failing to strike a juror for cause, are
also not likely to be found debatable or wrong by
reasonable jurists. Jackson has not made a substantial
showing of the denial of a constitutional right in any of
these claims, and the Court does not recommend a
COA issue as to Grounds 2, 4, 5, 6, 8, 9, and 10 of his
petition.
Likewise, the Court finds its assessment of
Jackson’s ineffective assistance of counsel claims
under Strickland would not be challenged by

80a
reasonable jurists. As such, the Court does not
recommend a COA issue as to Jackson’s claims in
Grounds 11-16. For these reasons, the Court
recommends that a COA be denied as to all claims that
Jackson raised in his § 2254 petition.
RECOMMENDATION
For the foregoing reasons, the Court
RECOMMENDS that Jackson’s petition for writ of
habeas corpus (DN 1) be DENIED. The Court further
recommends that a Certificate of Appealability be
DENIED as to all of Jackson’s claims.
/s/
Dave Whalin, Magistrate Judge
United States District Court
May 24, 2017

81a
NOTICE
Therefore, under the provisions of 28 U.S.C. Sections
636(b)(1)(B) and (C) and Fed.R.Civ.P. 72(b), the
Magistrate Judge files these findings and
recommendations with the Court and a copy shall
forthwith be electronically transmitted or mailed to all
parties. Within fourteen (14) days after being served
with a copy, any party may serve and file written
objections to such findings and recommendations as
provided by the Court. If a party has objections, such
objections must be timely filed or further appeal is
waived. Thomas v. Arn, 728 F.2d 813 (6th Cir.), aff'd
U.S. 140 (1984).
Copies:

Shawntele Cortez Jackson, pro se
Counsel of Record
/s/
Dave Whalin, Magistrate Judge
United States District Court
May 24, 2017

82a
APPENDIX E
RENDERED: JANUARY 21, 2010
NOT TO BE PUBLISHED
SUPREME COURT OF KENTUCKY
2007-SC-000392-MR
SHAWNTELE
CORTEZ JACKSON

APPELLANT

v.
COMMONWEALTH
OF KENTUCKY

APPELLEE

ON APPEAL FROM JEFFERSON CIRCUIT COURT
HONORABLE JUDITH E. MCDONALDBURKMAN, JUDGE
NO. 06-CR-001673
MEMORANDUM OPINION OF THE COURT
AFFIRMING
Appellant, Shawntele Cortez Jackson, was
found guilty by a Jefferson Circuit Court jury of
murder and tampering with physical evidence. For
these crimes, Appellant was sentenced to fifty years
imprisonment. He now appeals his convictions as a
matter of right. Ky. Const. § 110(2)(b).
I.

Background

83a
In May of 2006, Richard Lee Washington was
fatally shot in the area of the Iroquois housing projects
in Louisville. He was twenty-seven years-old.
Appellant, twenty years old at the time, was living in
one of the apartments with his girlfriend, Dominique
Rudolph. At trial, it was the Commonwealth’s theory
that Appellant intentionally shot and killed
Washington without excuse or justification.
Appellant’s defense was that Washington first
assaulted him and that Washington was
unintentionally shot in the course of defending and
struggling over a handgun.
Between midnight and 12 :15 a.m. on May 16,
2006, Appellant received a phone call from an
unidentified individual who owed him money.
Accompanied by a recent acquaintance, D’Angelo
Scott, Appellant sought a ride to a local convenience
store in order to meet the caller. Appellant then
approached Dora Ditto and her boyfriend,
Washington, standing by a parked car. Though he
knew Ditto, Appellant had only seen Washington
around the neighborhood. According to Appellant, he
approached Ditto and offered to pay her ten dollars to
take him to the convenience store. She agreed and
Washington drove the group. 1

Prior to and during the trip, all four individuals
consumed various drugs. Appellant allegedly received twenty to
twenty-five Xanax pills from Washington in exchange for two
rocks of crack cocaine. After giving ten of the pills to Scott,
Appellant claimed he chewed up the rest. Ditto testified that she
had drunk a one-half pint of gin and smoked a marijuana joint
laced with cocaine, adding that Washington had smoked a
similar “dirty blunt” while in the car.
1

84a
When they arrived at the convenience store,
Appellant met the caller and received his payment.
Before leaving, however, Appellant and Washington
began a verbal argument which continued until the
group returned to Iroquois. According to Appellant,
Washington started the argument because he wanted
more “dope.” According to Ditto, Appellant accused
Washington of stealing his cell phone. Scott testified
that he remembered the two arguing over a missing
cell phone.
Back at Iroquois, Washington pulled the car
into a parking spot. According to Appellant, who was
still seated in the back seat, Washington and Ditto
exited the car and walked toward the trunk. He slated
that Ditto then removed a blank handgun from- the
trunk and handed it to Washington. At this point,
Appellant claimed that he awoke Scott and told him
to get up. Appellant then exited the car and stepped
up onto the sidewalk before resuming his argument
with Washington. Washington allegedly approached
Appellant and Appellant told Washington that he saw
Ditto hand him the gun. Appellant stated that
Washington threatened to kill him before the two
began to yell and shove one another, with Washington
pushing Appellant first and Appellant then pushing
back. At some point thereafter, Appellant saw
Washington draw a handgun and Appellant
immediately grabbed Washington’s wrists and the
two men struggled for possession of the handgun.
During this struggle, Appellant explained that the
gun was in Washington’s right hand when it fired,
striking Washington in the back of the head.

85a
The testimony of the other witnesses differed
markedly from Appellant’s version of events. Ditto
stated that Appellant was the first to exit the car and
that he went toward a group of apartments before
returning, saying that he had found his cell phone. He
then asked Washington for another ride, but
Washington refused. Appellant insisted that
Washington would do so, and Washington again
refused. According to Ditto, Appellant then hit
Washington with a handgun that she assumed came
from his pocket. Washington ordered Ditto to get on
the sidewalk, after which Appellant told Washington
that he “ought to kill him.” With the handgun in his
right hand, Appellant then hit Washington again with
the gun and it fired, killing Washington. Similarly,
Scott stated that he remembered”-the two fighting,
though he recalled Washington yelling more than
Appellant. He testified that Appellant backed up and
charged at Washington, swinging his right arm and
hitting Washington in the face. Scott then heard a gun
fire, though he did not recall seeing anyone in the
group with a firearm that night.
Appellant stated that after the shooting he ran
to Rudolph’s apartment because he was scared and
high. Once there, he claimed that he passed out on her
bed, not waking or leaving for approximately thirtysix hours. 2 According to Ditto, Appellant immediately
ran from the scene with a gun in his hand. Scott
testified that he, too, went to Rudolph’s apartment
Later, while interviewing Rudolph and searching her
apartment, police stopped her son from removing two trash bags
from the bedroom. Inside one of the bags was the clothing that
Appellant wore the night of the shooting.
2

86a
and slept, but remembered Appellant arriving
sometime later. On this point, the Commonwealth
presented the testimony of Amber Baker, a former
girlfriend of Appellant. Baker stated that she was at
her apartment when Appellant arrived within ten to
fifteen minutes of the shooting looking scared. She
claimed that he looked out of her screen door for
approximately twenty minutes before leaving.
It was determined that the shooting occurred at
around 12 :42 a.m. and the cause of Washington’s
death was a gunshot wound to the lower back right
part of his skull, with the bullet traveling toward the
left eye and slightly downward without exiting. He
died instantaneously. Though police never recovered
a weapon, the bullet was consistent with a.45 caliber
automatic handgun. The medical examiner noted that
Washington did not have any defensive wounds but
did have a contusion over his left eyebrow and
lacerations over his left cheekbone.
At the conclusion of trial, the jury found
Appellant guilty of murder and tampering with
physical evidence. The jury fixed his punishment at
fifty years imprisonment for the count of murder and
one year imprisonment for the count of tampering
with physical evidence, recommending that the
sentences run concurrent with one another. On
appeal, Appellant raises ten allegations of error in his
underlying trial. For the reasons that follow, we
affirm Appellant’s convictions.
II.

Analysis
A.

Failure to Strike Juror for Cause

87a
Appellant’s first argument on appeal is that the
trial court abused its discretion in denying his motion
to strike a prospective juror for cause and that such
error is reversible because it forced Appellant to use
all of his peremptory challenges. We find no error in
this regard.
Appellant identifies three isolated responses by
Juror #24 to defense counsel’s hypothetical questions
and contends that they demonstrate that the juror
could not presume innocence. While defense counsel
was explaining the presumption of innocence to the
panel, she asked whether anyone would agree that -a
defendant “was a little guilty of something” if his case
progressed past an indictment and to trial. Juror #24
nodded in agreement and answered that “once a
person has gotten this far along, there’s bound to be
some justification for it to start with.” When defense
counsel asked the juror whether he could still
presume the defendant innocent or treat the parties
“on am even playing field,” he first indicated that it
would be significant if the evidence showed the
defendant carried a handgun, but his statement
thereafter was largely inaudible. The juror then
agreed with defense counsel’s summary of the juror’s
statement that if the evidence showed that the
defendant was carrying a handgun, he would be more
likely to commit a crime. Defense counsel
subsequently asked the juror whether he could put
aside that feeling and still consider the evidence. His
response, however, was again mostly inaudible, at one
point stating that “it was hard to say.” Counsel
followed, “because you don’t know what the evidence
is,” to which the juror agreed. Later in voir dire, Juror
#24 nodded his head in agreement with defense

88a
counsel’s statement that someone carrying a
concealed handgun without a permit would be more
likely to commit a crime. And then, finally, Juror #24,
when asked whether a defendant’s illegal drug
possession would indicate that he would be more
likely to commit other crimes, the juror nodded in
agreement (with many others on the panel) and stated
that drug possession often leads to other crimes.
“RCr 9.36(1) provides that the trial judge shall
excuse a juror [for cause] when there is reasonable
ground to believe that the prospective juror cannot
render a fair and impartial verdict.” Smith v.
Commonwealth, 734 S.W.2d 437, 444 (Ky. 1987)
(quoting Peters v. Commonwealth, 505 S.W.2d 764,
765 (Ky. 1974)). “[T]he party alleging bias bears the
burden of proving that bias and the resulting
prejudice.” Cook v. Commonwealth, 129 S.W.3d 351,
357 (Ky. 2004) (citing Caldwell v. Commonwealth, 634
S.W.2d 405, 407 (Ky. 1982)). Where there is such a
showing, “[t]he court must weigh the probability of
bias or prejudice based on the entirety of the juror’s
responses and demeanor.” Shane v. Commonwealth,
243 S.W.3d 336, 338 (Ky. 2007).
The established “test for determining whether
a juror should be stricken for cause is ‘whether... the
prospective juror can conform his views to the
requirements of the law and render a fair and
impartial verdict.’ Thompson v. Commonwealth, 147
S.W.3d 22, 51 (Ky. 2004) (quoting Mabe v.
Commonwealth, 884 S.W.2d 668, 671 (Ky. 1994)). This
Court has long recognized that ‘a determination as to
whether to exclude a juror for cause lies within the
sound discretion of the trial court, and unless the

89a
action of the trial court is an abuse of discretion or is
clearly erroneous, an appellate court will not reverse
the trial court’s determination.’
Fugett v. Commonwealth, 250 S.W.3d 604, 613
(quoting Pendleton v. Commonwealth, 83 S.W.3d 522,
527 (Ky. 2002)).
Having reviewed the entire voir dire, we do not
believe the trial court abused its discretion in failing
to strike Juror #24. None of his statements revealed
an inability to conform his views to the requirements
of the law - here, an alleged inability to indulge the
presumption of innocence - and to render a fair and
impartial verdict. Rather, the statements that
Appellant complains of were specific responses to
leading hypothetical questions posed by defense
counsel, all of which asked the juror to assume certain
facts consistent with criminal behavior. See Patton v.
Young, 46’7 U.S. 1025, 1039 (1984) (“The trial judge
properly may choose to believe those statements that
were -the most fully articulated or that appeared to
have been least influenced by leading.”). When asked
whether he could put aside the significance of a
defendant possessing a firearm, the juror’s audible
response was equivocal at best, agreeing that his
decision would depend upon the evidence presented.
To the extent that Appellant argues that the juror’s
statement that a felony trial was “bound to” have
“some justification for it,” we think that is an accurate
intuition (e.g., a finding of probable cause) and it does
not follow that the juror could not presume the
defendant’s innocence for purposes of a trial. We,
therefore, hold that the trial court did not abuse its

90a
discretion in overruling Appellant’s motion to strike
Juror #24 for cause.
B.

Inadmissible Opinion Testimony

Appellant next argues that the trial court
erroneously permitted two of the Commonwealth’s
witnesses to offer opinion testimony. We review his
claims here, but cannot agree.
Officer Robert King was the first to respond to
the scene. At trial, the Commonwealth questioned
King regarding several photographs displaying the
positioning of Washington’s body. During the
questioning, the Commonwealth asked King whether,
in his opinion and experience, the body appeared to
have been in a struggle.
King replied, “No,” and Appellant objected,
claiming the question called for speculation. Though
the trial court overruled Appellant’s subsequent
motion to strike King’s response, his objection was
sustained insomuch as the opinion lacked a proper
foundation. The Commonwealth subsequently asked
King the basis of his opinion, with King replying that
he first observed the body at the scene with intact
clothing, being free of rips, tears, or dirt. King
concluded that he saw no evidence consistent with a
struggle.
Appellant also argues that the trial court
erroneously admitted the opinions of Detective Cohen.
At trial, Cohen explained that he investigated the
scene and that part of his routine crime investigation
included visually inspecting a body for wounds,

91a
paying close attention to detail and any relevant
evidence. Cohen stated that he found small drops of
blood on Washington’s shirt, that his sweatshirt was
slightly soiled, that his jacket was still on his
shoulders, and that his hat was still on his head.
When the Commonwealth began to lay a
foundation as to Cohen’s experience, Appellant
objected and asked the court to prohibit Cohen from
expressing an opinion as to whether there was a
struggle prior to Washington’s death. Though the
court believed that Cohen could not properly state
such a conclusion, it ruled that he could conclude
whether he believed the scene was consistent with a
struggle, provided the Commonwealth established the
necessary foundation. In addition, and over
Appellant’s objection, the trial court concluded that
Cohen’s extensive experience in similar investigations
qualified him as an expert in his field. Cohen’s
testimony proceeded, wherein he explained that he
had seen the aftermath of approximately one hundred
fights during his ten years’ experience as a police
officer. He concluded that the positioning of
Washington’s body was inconsistent with. fight or
struggle based upon the hat being close to his head,
his clothing being intact, and a bag of chips and drink
in his possession. 3
Appellant now asserts that testimony at trial suggested
that the scene may have been tampered with in this respect, thus
undercutting the reliability of the officers’ opinions. This
argument, however, does not appear to have been raised below
and thus we do not consider it here. See e.g. Commonwealth v.
Pace, 82 S.W.3d 894, 895 (Ky. 2002) (“The general rule is that a
party must make a proper objection to the trial court and request
a ruling on that objection, or the issue is waived.”).
3

92a
Pursuant to KRE 701, a witness may testify “in
the form of an opinion or inference” if. 1) it is
“[r]ationally based on the perception of the witness;”
2) “[helpful to a clear understanding of the witness’
testimony or the determination of a fact in issue;” and,
3) it is “[n]ot based on scientific, technical, or other
specialized knowledge.” 4 Testimony offered under
KRE 701 is constrained by KRE 602, which “further
refines the scope of permissible lay opinion testimony,
limiting it to matters of which the witness has
personal knowledge.” Cuzick v. Commonwealth, 276
S.W.3d 260, 265 (Ky. 2009); see also Mills v.
Commonwealth, 996 S.W.2d 473, 488 (Ky. 1999)
(“KRE 701 must be read in conjunction with KRE 602,
which limits a lay witness’s testimony to matters to
which he has personal knowledge.”). A trial court’s
admission of lay opinion testimony is a decision
committed to its sound discretion and is thus reviewed
for an abuse of discretion. See e.g. United States v.
Pierce, 136 F.3d.770, 773 (1=1 th Cir.1998); see also
Robert G. Lawson, The Kentucky Evidence Law
Handbook, § 6.05[6], p. 416 (4th ed. 2003)
(“Judgments that have to be made in using KRE 701
are difficult (especially the helpfulness decision) and

In Hampton v. Commonwealth, we explained that
Kentucky’s adoption of KRE 701 “signaled this Court’s intention
to follow the modern trend clearly favoring the admission of such
lay opinion evidence,” which “reflects the philosophy of this
Court, and most courts in this country, to view KRE 701 as more
enclusionary than exclusionary.” 133 S.W.3d 438, 440-41 (Ky.
2004) (quoting Clifford v. Commonwealth, 7 S.W.3d 371, 377
(Ky. 1999)).
4

93a
more susceptible to sound decisions at trial than on
appeal.”).
Here, we conclude that both witnesses’ opinions
were clearly admissible as lay opinion and thus find
no abuse of discretion in this regard. In forming their
opinions that Washington’s body did not reflect that
he had been in a struggle, the witnesses rationally
drew an inference from their first-hand perceptions at
the scene. Though, as Appellant contends, it is true
that the jury had photographs of the scene, King and
Cohen, as eyewitnesses to their subject matter, could,
nevertheless, help the jury in their interpretation, all
going toward determining a fact in issue - namely,
Appellant’s claim of self-defense.
C.

Inadmissible Reference
to Possession of Handgun

Appellant contends that the trial court erred in
allowing Amber Baker to testify that she had seen
Appellant in possession of a small, “silver” handgun
three to four days before the night of the shooting
when the statements of Ditto and Scott indicated that
a different, “black” handgun was actually used in
causing Washington’s death. Because of this
discrepancy and because a handgun was never
recovered, Appellant argues that the trial court
erroneously concluded that Baker’s statement was
relevant and that its probative value substantially
outweighed its prejudicial effect. We agree that the
trial court abused its discretion in this regard, but
believe that its effect was, ultimately; harmless.

94a
That all evidence must be relevant in order to
be admissible is perhaps the most fundamental rule of
evidence. See KRE 402; see also Lawson, The
Kentucky Evidence Law Handbook, at § 2.00, p. 27
(“The first critical determination to be made
concerning the admissibility of any item of evidence is
its relevance; no other principle or concept is of any
significance in the absence of a positive determination
on this issue.”). KRE 401 defines relevant evidence as
“evidence having any tendency to make the existence
of any fact that is of consequence to the determination
of the action more probable or less probable than it
would be without the evidence.” Relevant evidence
may, nevertheless, be inadmissible where “its
probative value is substantially outweighed by the
danger of undue prejudice.” KRE 403. In both
respects, we review a trial court’s determination for
an abuse of discretion. See Love v. Commonwealth, 55
S.W.3d 816, 822 (Ky. 2001) (citing Commonwealth v.
English, 993 S.W.2d 941, 945 (Ky. 1999); Barnett v.
Commonwealth, 979 S.W.2d 98 (Ky. 1998)).
Because the probativeness of Baker’s statement
- in the context of the evidence - was so minimal via
KRE 403, we conclude that the trial court abused its
discretion in admitting it. The Commonwealth makes
no attempt to justify its admission, other than to claim
(without reference to any authority) that it properly
established Appellant’s state of mind. We cannot
agree. In stating that Appellant carried a gun on his
person a few days prior to the shooting, Baker
described a handgun that differed markedly in its
characteristics than the handgun-described by
eyewitnesses to the shooting. Indeed, by Appellant’s
own testimony, the handgun that killed Washington

95a
was not his, but Washington’s. In light of the fact that
a handgun was never recovered, Baker’s statement
tended only to show Appellant’s general propensity to
carry a handgun - a use prohibited by KRE 404(b).
Nevertheless, in context, the error was
harmless because we believe that it did not have
“substantial influence” upon Appellant’s trial such
that it “substantially swayed” his conviction.
Winstead, 283 S.W.3d at 688-89. Independent
evidence strongly suggested Appellant’s guilt. While
in custody prior to trial, Appellant telephoned Baker
and a recording of that call was played for the jury.
Therein, Appellant warned Baker not to tell
investigators that he was known for having a gun and
told her to claim that she was forced or threatened to
testify if she could not ignore the subpoena. This
evidence taken with the fact that neither Appellant
nor Washington had defensive wounds, that
Appellant fled the scene of the crime, that no murder
weapon was recovered, that Appellant attempted to
dispose of the clothes he was wearing, and that Ditto
saw Appellant threaten and intentionally strike an
unarmed Washington with a loaded handgun all
demonstrates that Baker’s reference had little effect
on Appellant’s conviction.
D.

Inadmissible Evidence in Jury
Deliberations

Appellant’s next claim of error is unpreserved.
Prior to trial, Appellant moved that the audio from a
crime scene DVD be excluded from play at trial. The
Commonwealth agreed and the trial court sustained
the motion. At trial, the Commonwealth played the

96a
muted DVD for the jury without objection. The
Commonwealth then moved to admit the DVD into
evidence and Appellant did not object. Though
Appellant now argues that the jury was able to make
use of inadmissible evidence during its deliberations,
he made no attempt to raise the issue at trial. See
Pace, 82 S.W.3d at 895; Brown v. Commonwealth, 890
S.W.2d 286, 290 (Ky. 1994). Appellant does not
request palpable error review and we do not address
it further.
E.

Limited Impeachment of
Prosecution Witness

Appellant also argues that the trial court
erroneously limited his ability to impeach Baker with
a prior inconsistent statement. We agree, but hold the
error to be harmless.
At trial, Baker testified that ten to fifteen
minutes after hearing gunshots and sirens, Appellant
came to her apartment for approximately ten to
twenty minutes acting scared and looking out her
screen door. Baker stated that the time was between
11:30 pm and 1:30 am, as that was the time when a
popular television program aired that she
remembered viewing that night. During Appellant’s
cross-examination of Baker, defense counsel
established that Baker had given a similar statement
to police. Defense counsel then proceeded to ask Baker
whether she recalled giving a prior statement to
investigator Joyce Aldrich, to which Baker stated that
she did not. Defense counsel informed Baker as to the
date and time of that interview, but she still claimed
having no memory of way statement to Aldrich.

97a
At the request of the Commonwealth, a bench
conference ensued in which defense counsel explained
that she was attempting to impeach Baker with a
prior inconsistent statement - namely, that Baker had
allegedly stated in her interview with Aldrich that
Appellant arrived at her apartment at 11 :00 pm and
omitted whether she heard gunshots or observed
Appellant acting scared. The trial court noted that the
prior statement had been incorporated into a written
synopsis by Aldrich and that defense counsel simply
could not read the writing aloud to Baker to
accomplish impeachment. Rather, the trial court
concluded that Aldrich would have to testify as to its
contents, to which defense counsel agreed.
Defense
counsel
resumed
her
crossexamination of Baker and began asking whether she
recalled giving certain statements to Aldrich and,
apparently, began reading from Aldrich’s summary to
identify Baker’s exact statement. As soon as it became
clear that defense counsel was about to do so, the
Commonwealth objected on hearsay grounds. The
trial court agreed with the Commonwealth, stating
that because Baker could not recall the statement,
defense counsel could not ask her about it.
The next day, Aldrich testified and confirmed
that she had spoken with Baker on the date and time
previously
indicated
during
Baker’s
crossexamination. Perhaps anticipating an objection from
the Commonwealth, defense counsel then approached
the bench and argued that Baker’s previous denial
and inability to recall speaking with Aldrich allowed
her impeachment with the prior inconsistent

98a
statement. In response, the Commonwealth argued
that defense counsel could not pursue impeachment
where the denial was not evasive but simply an
inability to recall. The trial court agreed and ruled
that Aldrich could not read Baker’s statement aloud
in order to impeach her. The trial court concluded that
defense counsel could only ask Aldrich whether she
had spoken to Baker.
Impeachment by prior inconsistent statement
is a common technique used in discrediting witness
credibility. In order to introduce a prior inconsistent
statement, a proper foundation must first be
established, whereby the witness is “inquired of
concerning it, with the circumstances of time, place,
and persons present, as correctly as the examining
party can present them.” KRE 613; see also Noel v.
Commonwealth, 76 S.W.3d 923, 929-931 (Ky. 2002)
(noting strict compliance with the foundation
requirements). Where a proper foundation is laid, in
Kentucky, the prior inconsistent statement represents
a hearsay exception and may also be received as
substantive evidence. KRE 801A(a)(1); Jett v.
Commonwealth, 436 S.W.2d 788 (Ky. 1969).
Though, generally, a trial court “has a broad
discretion in deciding whether or not to permit the
introduction of such contradictory evidence,” Wise v.
Commonwealth, 600 S.W. 2d 470, 472 (Ky. App. 1978),
here we must conclude that the court clearly erred in
prohibiting Baker’s impeachment because her
inability to recall speaking with Aldrich constituted
inconsistency for purposes of the rule. In Brock v.
Commonwealth, this Court held that “[a] statement is
inconsistent . . . whether the witness presently

99a
contradicts or denies the prior statement, or whether
he claims to be unable to remember it.” 947 S.W.2d 24,
27- 28 (Ky. 1994) (citing Wise, 600 S.W.2d at 472).
Indeed, as Wise observed, “No person should have the
power to obstruct the truth’-finding process of a trial
and defeat a prosecution by saying, ‘I don’t
remember.’” 600 S.W.2d at 472.
In any event, the error was harmless. Notably,
the substantive value of Baker’s prior statement was
quite low. If taken as true, it only briefly placed
Appellant in her home some two hours before
Washington’s death - a fact of little relevance to
Appellant’s claim of self-defense. As to its
impeachment value, Baker’s testimony was,
nevertheless, later called into question: the defense
later recalled Detective Cohen to testify to prior
statements that Baker had made that were
substantially similar to those Appellant sought to
introduce through the testimony of Aldrich. Taken
with the other evidence against Appellant, we cannot
say that Baker’s limited impeachment in this respect
“substantially swayed” Appellant’s conviction.
Winstead, 283 S.W.3d at 688-89.
F.

Exclusion of Photographic
Evidence

Appellant argues that the trial court
erroneously excluded certain photographic evidence
which would have corroborated his defense. We find
no error.
During the testimony of Officer Woolen,
Appellant sought to introduce into evidence his “mug

100a
shot,” taken just after his arrest for the crimes. When
the Commonwealth questioned its relevance,
Appellant argued that the picture showed redness
along his wrists and thus supported his claim that
Washington held him by his wrists as the two
struggled over the handgun. The Commonwealth
objected and contended that the photo was of a low
quality, as it was generated from a non-photographic
printer. The trial court reviewed the print-out and
noted that the printer production rendered
Appellant’s skin tone very yellow in appearance.
Though the Commonwealth suggested that Appellant
introduce from discovery a similar police photograph
documenting Appellant’s wrists just after his arrest at
the scene (and prior to the prolonged wearing of
handcuffs), he would not stipulate to their admission.
Ultimately, the trial court concluded that the printout was inadmissible due to its poor quality and
Officer Woolen later testified by avowal as to the
authenticity of the mug shot.
Having reviewed the photograph, we hold that
the trial court’s exclusion of the evidence was not
“arbitrary, unreasonable, unfair, or unsupported by
sound legal principals.” English, 993 S.W.2d at 945;
see also Love, 55 S.W.3d at 822. It appears that the
print-out did, indeed, produce a yellowing-effect,
giving greater contrast to areas of darker
pigmentation or low light. Thus, even if we assumed
that the evidence were relevant in spite of these
inaccuracies, see KRE 401, we believe that; pursuant
KRE 403, the print-out left the evidence so inaccurate
that its probative value was “substantially
outweighed by the danger of . . . misleading the jury.”

101a
G.

Jury Instructions

Appellant challenges several aspects of his jury
instructions, arguing that such errors generally
denied him a fair trial and his right to due process. We
address each contention, but find no cause for
reversal.
1.

Failure to Instruct on
Self-Protection

Appellant first argues that the trial court
erroneously denied his request for a self-protection
instruction as to the lesser offenses of second-degree
manslaughter and reckless homicide. Though we
agree that such an omission was an abuse of
discretion, see Ratliff v. Commonwealth, 194 S.W. 3d
258, 274 (Ky. 2006) (abuse of discretion standard of
review) (citing Johnson v. Commonwealth, 134
S.W.3d 563, 569-70 (Ky. 2004)), we believe that the
error was harmless in this instance.
At the conclusion of trial, the court instructed
the jury on the offenses of murder, second-degree
manslaughter, and reckless homicide. Though the
murder instruction included an additional element
that required the Commonwealth to prove that
Appellant did not act in self-protection, both the
second-degree manslaughter and reckless homicide
instructions lacked that additional element.
Appellant tendered instructions that included the
self-protection instruction as to, all three offenses and
argued that it was legally required. The trial court
disagreed and concluded that self-protection was not

102a
an available defense to the “non-intentional” offenses
of second-degree manslaughter and reckless homicide.
Generally speaking, “[once evidence is
introduced which justifies an instruction on selfprotection or any other justification defined in KRS
chapter 503, the Commonwealth has the burden to
disprove it beyond a reasonable doubt, and its absence
becomes an element of the offense.” Commonwealth v.
Hager, 41 S.W.3d 828, 833 n.l (Ky. 2001) (citing KRS
500.070(1), (3), and 1974 Commentary thereto; Brown
v. Commonwealth, 555 S.W.2d 252, 257 (Ky. 1977)).
In practice, “[t]he burden of proof is assigned by
including as an element of the instruction on the
offense ‘that he was not privileged to act in selfprotection.”‘ Id. In Elliott v. Commonwealth, 976
S.W.2d 416, 422 (Ky. 1998), this Court, in a thorough
analysis, departed from a line of authority that had
once precluded the assertion of a self-protection
defense to the charges of wanton murder, seconddegree manslaughter, and reckless homicide (among
other unintentional offenses). Since Elliott, this Court
has found error where a trial court, nevertheless,
denies an otherwise warranted self-protection
instruction within a homicide instruction requiring a
mens rea short of intent or specific intent. See Halter,
41 S.W.3d at 837- 38 (instruction given with respect
to murder and first-degree manslaughter but not
given with respect to second-degree manslaughter and
reckless homicide). Here, too, we think it quite clear
that the trial court abused its discretion in denying
Appellant’s requested self-protection instruction
within -the instructed offenses-of second-degree
manslaughter and reckless homicide.

103a
Yet, we believe that this error was harmless, as
we cannot say that “‘the error itself had substantial
influence’ upon Appellant’s trial. Winstead, 283
S.W.3d at 688-89 (Ky. 2009). Indeed, we believe it
quite insignificant. Though it is generally true an
erroneous instruction is presumed prejudicial, see
Harp v. Commonwealth, 266 S.W.3d 813, 818 (Ky.
2008) and that “an erroneous instruction on a lesser
included offense can be grounds for reversal even if
the defendant was convicted of the higher offense,”
Love, 55 S.W.3d at 826 n.3, the practical effect here
was to lessen the Commonwealth’s burden with
respect to the second degree manslaughter and
reckless homicide instructions. In spite of that error,
the jury, nevertheless, chose to convict Appellant
under the correctly phrased instruction of murder, one
which properly incorporated the Commonwealth’s
additional burden to disprove Appellant’s selfprotections claim beyond a reasonable doubt. As a
result, the jury concluded, that Appellant was not
entitled to the self-protection defense at all. While
Appellant argues that we should still find reversible
error here, he identifies no authority requiring such a
result. The fact remains that Appellant was convicted
under a correct instruction. If the jury had convicted
him of either second-degree manslaughter or reckless
homicide, we would not hesitate to reverse his
conviction here. See e.g. Elliott, 976 S.W.2d at 422
(reversal where defendant was convicted under
instruction lacking self-protection element); Mondie v.
Commonwealth, 153 S.W.3d 203, 210 (Ky. 2,005)
(same). That, however, is not-the case.
2.

Erroneous Initial Aggressor
Instruction

104a
Appellant next contends that the evidence did
not support an instruction setting forth the
provocation exception to the defense of self-protection,
pursuant to KRS 503.060(2), and thus the trial court
abused its discretion in accepting the instruction over
Appellant’s objection. Having reviewed the record, we
cannot agree.
It is well-established that “[a] trial court is
required to instruct the jury on every theory of the
case that is reasonably deducible from the evidence.”
Fredline v. Commonwealth, 241 S.W.3d 793, 797 (Ky.
2007) (citing Manning v. Commonwealth, 23 S.W.3d
610, 614 (Ky. 2000)); see also RCr 9.54(l). Indeed, “[i]n
a criminal case, it is the duty of the court to prepare
and give instructions on the whole law. This general
rule requires instructions applicable to every state of
case covered by the indictment and deducible from or
supported to any extent by the testimony.” Lee v.
Commonwealth, 329 S.W.2d 57, 60 (Ky. 1959). This
Court reviews “a trial court’s rulings regarding
instructions for an abuse of discretion.” Ratliff, 194
S.W.3d at 274.
KRS 503.060(2), in pertinent part, provides
that a defendant’s otherwise valid self-protection
defense is “not justifiable when . . . [t]he defendant,
with the intention of causing death or serious physical
injury to the other person, provokes the use of physical
force by such other person.” In other words, “the
privilege of self-defense is denied to an individual who
provokes another into an assault for the purpose of
using the assault as an excuse to kill or seriously
injure that person” KRS § 503.050 Commentary

105a
(1974). The exception “may apply to a defendant who
is a mental or physical aggressor.” Leslie W.
Abramson, 10 Kentucky Practice, Substantive
Criminal Law, § 5.24 (2009-2010).
Because the testimony at trial indicated that
Appellant may have intentionally provoked
Washington, we find no error in the trial court
instructing the jury to that effect. Notably, Ditto
testified that she saw Appellant first strike
Washington with a handgun and heard him threaten
Washington that he “ought to kill him.” Moreover,
Appellant admitted that the two engaged in an
aggressive verbal exchange and shoved one another
just prior to Washington’s death. Taken together, an
issue of fact was raised as to whether Appellant
intentionally provoked Washington to assault him
and precipitate his murder.
3.

Failure to Instruct on
Voluntary Intoxication

Appellant argues that it was reversible error
for the trial court to deny his tendered voluntary
intoxication
instruction,
as
the
evidence
demonstrated that his intoxication prevented him
from forming the requisite mental state for
commission of the crimes. Again, we cannot agree.
Just as “[a] trial court is required to instruct the
jury on every theory of the case that is reasonably
deducible from the evidence,” Fredline, 241 S.W.3d at
797, a criminal defendant has the right “to have the
jury instructed on the merits of any lawful defense
which he or she has,” Grimes v. McAnulty, 957 S.W.2d

106a
223,
226 (Ky. 1997)
(citing Sanborn v.
Commonwealth, 754. S.W.2d 534, (Ky. 1988), Curtis
v. Commonwealth, 169 Ky. 727, 184 S.W. 1105
(1916)). It, too, though “is dependent upon the
introduction of some evidence justifying a reasonable
inference of the existence of a defense.” Id. (citing
Brown v. Commonwealth, 555 S.W.2d 252, 257 (Ky.
1977); Jewell v. Commonwealth, 549 S.W.2d 807, 812
(Ky. 1977)).
Pursuant to KRS 501.080(1), voluntary
intoxication may be a defense where it negates “the
existence of an element of an offense” - most often, the
mens rea, but, even then, only that of specific intent.
See McGuire v. Commonwealth, 885 S.W.2d 931, 934
(Ky. 1994) (“Voluntary intoxication does not negate
culpability for a crime requiring a culpable mental
state of wantonness or recklessness, but it does negate
specific intent.”). This Court has held that a voluntary
intoxication instruction is warranted where, “from the
evidence presented, a jury could reasonably conclude
that the defendant was so intoxicated that he could
not have formed the requisite mens rea for the
offense.” Fredline, 241 S.W.3d at 797 (citing Nichols v.
Commonwealth, 142 S.W.3d 683, 689 (Ky. 2004)). Yet,
“there must be evidence not only that the defendant
was drunk, but that [he] was so drunk that [he] did
not know what [he] was doing.” Springer v.
Commonwealth, 998 S.W.2d 439, 451-52 (Ky. 1999)
(citing Stanford v. Commonwealth, 793 S.W.2d 112,
117-18 (Ky. 1990); Meadows v. Commonwealth, 550
S.W.2d 511 (Ky. 1977); Jewell, 549 S.W.2d at 807).
Thus, it is often said that “mere drunkenness will not
raise the defense of intoxication.” Ropers v.

107a
Commonwealth, 86 S.W.3d 29, 44 (Ky. 2.0.04) (citing
Jewell, 549 S.W. 2d-at 812).
Though Appellant may have been under the
influence of narcotics, the trial court properly denied
his requested voluntary intoxication instruction
because no evidence indicated that he was so impaired
or intoxicated at the time the offenses were committed
such that he was unable to form the requisite mens
rea for murder (KRS 507.040) or tampering with
physical evidence (KRS 524. 100). Appellant orally
ingested approximately ten to fifteen Xanax pills prior
to leaving for the convenience store, but that fact
alone was insignificant. While Appellant’s testimony,
in conjunction with Ditto and Scott’s, suggested that
Appellant was “high” when the offenses were
committed, it does not show that he was so impaired
at the time of the altercation and subsequent flight to
Rudolph’s home that he did not know what he was
doing - indeed, at trial, Appellant’s defense rested
upon his detailed account of what exactly happened.
4.

Failure to Instruct on No
Duty to Retreat

As to the jury instructions, we believe that
Appellant’s final contention is without merit. He
argues that the trial court should have instructed the
jury that he had no duty to retreat and that such an
omission misled the jury in evaluating his claim of
self-protection. Though it is generally true that
Appellant had no duty to retreat, see Gibson v.
Commonwealth, 237 Ky. 33, 34 S.W.2d 936 (1931) (“It
is the tradition that a Kentuckian never runs. He does
not have to.”), he concedes that we have addressed and

108a
rejected the very argument he now makes in Hilbert
v. Commonwealth, 162 S.W.3d 921, 925-26 (Ky. 2005)
- namely, that “[a]n instruction on retreat... was
necessary to counter the inference that Appellant was
under a duty to avoid, if at all possible, the altercation
with the victims.” In Hilbert, this Court “explained
that the Penal Code had incorporated prior Kentucky
law concerning retreat and under that law a specific
retreat instruction was not required,” Ropers v.
Commonwealth, 285 S.W.3d 740, 756 (Ky. 2009)
(reaffirming Hilbert), 5 as an adequate self-protection
instruction makes unnecessary a “no duty of retreat”
instruction. 6 See id. at 926 (citing cases); see also
Bush v. Commonwealth, 335 S.W.2d 324, 326 (Ky.
1960) (“In fact, an instruction which does set out
particular facts has been condemned, and it has been
held that an instruction on self-defense should be in
the usual form, leaving the question to be determined
by the jury in the light of all the facts and
We note that the conduct for which Appellant was
prosecuted occurred before July 12, 2006 - the effective date of
Senate Bill 38 and the 2006 self-defense amendments - and, as
in Rogers, we see no need to address their effect, if any, upon
Hilbert at this time.
5

Though we have acknowledged here that the trial court
erroneously omitted a self-protection instruction as an element
within the instructed offenses of second-degree manslaughter
and reckless homicide, we do not believe this to be the type of
“inadequacy” contemplated by Hilbert and its progeny which
could necessitate a separate retreat instruction. See e.g.
Crawford v. Commonwealth, 281 Ky’. 557, 136 S.W.2d 754, 758
(1940) (“The instruction in the instant case did not require the
defendants to retreat and allowed them to defend themselves.”).
That is to say, the murder instruction under which Appellant
was convicted incorporated a legally proper self-protection
instruction.
6

109a
circumstances of the case, rather than in the light of
certain particular facts.”); Rogers, 285 S.W.3d at 757
(“[R]etreat remains a factor amidst the totality of
circumstances the jury is authorized to consider.”).
Accordingly, the trial court did not err by refusing
Appellant’s tendered instruction.
H.

Cumulative Error

Finally, Appellant contends that even if we do
not find any individual issue sufficient to require
reversal, as is -the case, we should still reverse his
convictions on the basis of the cumulative errors he
has identified. Our review of the entire case, however,
persuades us that Appellant received a fair trial and
that the errors we have discussed were not so
cumulative in their effect as to, nevertheless, mandate
reversal. See Funk v. Commonwealth, 842 S.W.2d
476, 483 (Ky. 1992); Bryd v. Commonwealth, 825
S.W.2d 272, 278 (Ky. 1992) (overruled on other
grounds by Shadowen v. Commonwealth, 82 S.W.3d
896 (Ky. 2002)).
III.

Conclusion

Therefore, for the above stated reasons, we
hereby affirm Appellant’s convictions and sentence.
All sitting. All concur.
COUNSEL FOR APPELLANT:
Daniel T. Goyette
Louisville Metro Public Defender
Advocacy Plaza

110a
717-719 West Jefferson St.
Louisville; KY 40202 ~.
Cicely Jaracz Lambert
Assistant Appellate Defender
Office of the Louisville Metro Public Defender
717-719 West Jefferson St.
Louisville, KY 40202
COUNSEL FOR APPELLEE:
Jack Conway
Attorney General
Gregory C. Fuchs
Assistant Attorney General
Office of Attorney General
Criminal Appellate Division
1024 Capital Center Drive
Frankfort, KY 40601-8204

